<html>
<title> - IMPLEMENTATION OF THE NEW START TREATY, AND RELATED MATTERS</title>
<body><pre>[Senate Hearing 112-652]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-652

 
      IMPLEMENTATION OF THE NEW START TREATY, AND RELATED MATTERS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
?



                  U.S. GOVERNMENT PRINTING OFFICE
77-373                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>  

                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, U.S. Department of Defense, 
  Washington, DC.................................................    13
    Prepared statement...........................................    15
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    39
D'Agostino, Hon. Thomas P., Administrator of the National Nuclear 
  Security Administration and Under Secretary for Nuclear 
  Security, U.S. Department of Energy, Washington, DC............     9
    Prepared statement...........................................    11
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    48
    Responses to questions submitted for the record by Senator 
      Tom Udall..................................................    52
Gottemoeller, Hon. Rose, Acting Under Secretary for Arms Control 
  and International Security, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    34
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


      IMPLEMENTATION OF THE NEW START TREATY, AND RELATED MATTERS

                              ----------                              


                        THURSDAY, JUNE 21, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Shaheen, Udall, Lugar, Corker, 
Risch, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all very much. We are running a couple of minutes 
late because we had Russia PNTR down in the Finance Committee, 
and we are moving under the cloud of a U.S. Senate vote-a-thon, 
which will begin again at 11 a.m. The last few days have been 
super voting, I guess.
    So we are going to try, and we don't have that many 
Senators here yet. We will see how many come. But my plan is to 
start with a 5-minute round, and then we can have a second 
round, if needed. But if fewer Senators show up, then we will 
expand that when the questioning time comes.
    Obviously, evaluating the New START Treaty and debating its 
merits was a major undertaking here, and I am very grateful to 
Secretary Gottemoeller and to others who contributed to what I 
thought was a very extensive and productive effort to evaluate 
that treaty and to lay the groundwork to put a record together. 
We scrutinized it through months of open and classified 
hearings, hundreds of questions for the record, more than a 
week of debate in the full Senate.
    And ultimately, the committee supported it 14 to 4, and we 
passed it in the full Senate with 71 votes. And I observed, 
along with a few others, that in today's Washington, 71 is 
probably the old 95. But regardless, I am proud that we sent a 
signal to the world that we remain committed to trying to 
reduce the threat of nuclear proliferation.
    Now it has been almost a year and a half since the Senate 
agreed to the New START and just over a year since it entered 
into force. So it is appropriate at this juncture to review how 
well the treaty is performing.
    We said we would do that, and we are doing it. And Senator 
Corker and Senator Isakson particularly made it clear that that 
was an important part of their willingness to be supportive, 
and we appreciate that and want to respect all of the 
commitments that were made with respect to the treaty. So it is 
important to me as chair and to Senator Lugar, who has spent a 
lifetime on this topic, that we do our due diligence.
    So I look forward to hearing from our witnesses today. I 
just want to say a couple of quick things about it maybe to 
help frame the discussion a little bit. I think there is a very 
good story to be told.
    First, the United States has already conducted 23 short-
notice inspections of Russian nuclear weapons bases since the 
ratification. That is pretty significant. On 23 occasions, 
teams of well-trained, well-prepared U.S. inspectors have, on 
short notice, brought radiation scanners and other equipment to 
highly sensitive Russian nuclear bases of our choosing.
    Now we depend on these short-notice inspections to verify 
that Russia has been telling us the truth about those 
facilities and the nuclear weapon systems that they house. 
Thanks to New START, we get to do these inspections 18 times a 
year for the next 10 years.
    Second, the treaty gives us visibility into Russia's 
nuclear activities. Every 6 months, the United States receives 
a comprehensive database from Russia detailing where its 
strategic weapons systems are located and whether they are 
deployed, undergoing maintenance, or being retired.
    And that database doesn't just sit there for 6 months. 
Between those 6-month updates, we receive hundreds of 
notifications from the Russians on the numbers, locations, and 
technical characteristics of weapons systems and facilities 
that are subject to the treaty's verification provisions.
    These notifications allow us to track movements and changes 
in the status of Russia's nuclear arsenal. And what that means 
in practice is that we now have far more up-to-date information 
on each Russian missile, each launcher, each bomber than we had 
before we ratified the treaty.
    Now despite the clear benefits to our security, there are 
some critics who nevertheless argue that somehow we did Russia 
a favor by ratifying New START. I think the facts just don't 
support that.
    First of all, we didn't sign up to the New START Treaty as 
a favor to anybody, let alone Russia, and any more than 95 
United States Senators in 2003 under President Bush were doing 
a favor for Russia when they voted to support the Bush 
administration's Strategic Offensive Reductions Treaty.
    Talk to former Secretary of Defense Bob Gates. He certainly 
wasn't seeking to do a favor when he supported New START. 
Neither were the commanders of U.S. Strategic Command, the 
Chairman of the Joint Chiefs of Staff, or Condoleezza Rice, 
Steve Hadley, Brent Scowcroft, and Jim Schlesinger. The only 
question for them was whether the treaty benefited our national 
security. They thought it did, and as I said, 71 Senators 
agreed.
    Now, frankly, those who say we should just walk away from 
New START--or who never supported it in the first place because 
of our differences with Russia--really have a fundamental 
responsibility which they have never fulfilled, which is 
explain to the American people how retaining more nuclear 
weapons than our military advisers say we need and how having 
less insight into Russia's strategic nuclear arsenal would 
change Russia's calculus toward Syria or its approach to human 
rights or any other issue. We need to see the logic of that.
    Now, of course, when the Senate ratified New START, it also 
supported additional resources to maintain our own nuclear 
weapons infrastructure. And far from falling short on 
commitments, the administration has been working hard to 
provide increased support for the complex at a time when almost 
all other budgets are being slashed.
    Last year, the President requested what he said he would 
under the 10-year plan to fund the nuclear weapons complex. It 
was the House of Representatives that cut the funding below the 
request--not the President. And this year, the President asked 
for another 5 percent increase for the budget over last year.
    So, with that, I welcome our distinguished witnesses. Rose 
Gottemoeller, well known to the Senate, led the U.S. team that 
negotiated the treaty as the Assistant Secretary of State for 
Verification and Compliance. She is back today as the Acting 
Under Secretary of State for Arms Control and International 
Security.
    Tom D'Agostino is the Administrator of the National Nuclear 
Security Administration and the Under Secretary of Energy for 
Nuclear Security, and he was also a familiar face around the 
Senate during the New START debate. And he will address the 
status, challenges, and plans for our nuclear weapons 
laboratories and other infrastructure.
    Finally, Madelyn Creedon is Assistant Secretary of Defense 
for Global Security Affairs, where she oversees policy 
developments for U.S. nuclear forces and missile defenses. And 
she is well known for her service on the staff of the Armed 
Services Committee. We welcome her back.
    So thank you all for being here today. We look forward to 
your testimony and the opportunity to review where we are with 
respect to START.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman.
    Today, the committee meets to review the implementation of 
the New START Treaty and to engage in a broader examination of 
United States nuclear policy.
    I thank the chairman for holding this hearing. I commend 
Senator Corker for his efforts on this issue. We welcome back 
to the committee Acting Under Secretary Rose Gottemoeller. We 
welcome to the committee for the first time Thomas D'Agostino, 
the Administrator of the National Nuclear Security 
Administration, and Madelyn Creedon, Assistant Secretary of 
Defense for Global Security Affairs.
    The Foreign Relations Committee, as the chairman has 
pointed out, approved the New START Treaty on September 16, 
2010, by a vote of 14 to 4, after acting on dozens of 
amendments to the resolution of ratification and considering 
answers to more than a thousand questions for the record 
submitted in 12 hearings and multiple briefings. The Senate 
approved the treaty by a vote of 71-26 on December 22, 2010, 
after considering and voting on almost 40 amendments on the 
floor to both the treaty and the resolution of ratification in 
8 days of floor debate.
    We should not fail to appreciate the importance of what was 
achieved in December 2010. The final result occurred because a 
coalition of Senators from both parties joined to bolster the 
twin
pillars of American nuclear security--arms control and 
modernization.
    The legislative process resulted not only in the approval 
of the treaty, but also a commitment to spend $185 billion over 
10 years to modernize nuclear warheads and delivery systems. 
This was a rational policy outcome that bolstered U.S. national 
security.
    In my judgment, both the New START agreement and the 
nuclear modernization commitments were justified, even without 
reference to each other. It was essential to continue limits on 
Russian strategic nuclear forces and to ensure transparent 
inspections. It also was essential the United States adopt a 
plan for badly needed updates of our nuclear infrastructure and 
arsenal.
    In other words, joining these two policies was not merely a 
marriage of convenience or a case of legislative log rolling. 
Both were good policies made even stronger by being accepted in 
the same political and policy context.
    The outcome of the New START and nuclear modernization 
debate also represented an expression of unity and clarity in 
an area of national security policy where these attributes are 
key contributors to success. Nuclear policy is not an 
inconsequential seminar topic where players can score political 
points without incurring negative policy ramifications. Every 
aspect of our nuclear policy and the accompanying debates are 
scrutinized by the Russians, the Chinese, our allies, even 
rogue states.
    This does not preclude vigorous debate. But in the end, we 
should attempt to reach consensus because it is good for U.S. 
national security to do so. At the very least, we must project 
a unified purpose.
    The New START Treaty approval, accompanied by nuclear 
modernization commitments, established a solid basis for 
strategic nuclear policy for a decade going forward. It 
provided clarity to allies regarding the U.S. nuclear umbrella. 
It ensured the potency of our nuclear deterrent. It achieved 
transparency with respect to Russia's nuclear programs, and it 
was a foundation upon which talks with Russia on tactical 
nuclear weapons could be based.
    The debate was not an easy one, but the outcome established 
a credible, broad-based plan for nuclear policy going forward. 
Like Senator Corker, I was among those who sought and obtained 
multiple assurances relating to the triad of American land, 
air, and sea-based strategic forces to ensure sufficient 
support in the Senate for the New START Treaty.
    I am deeply concerned about the state of nuclear planning 
and programming within the Defense Department and the services 
regarding the triad. I am also very concerned by attempts to 
force U.S. withdrawal from the New START Treaty or suspend its 
implementation. We should not risk either the transparency 
achieved by the treaty nor the reliability and performance of 
our strategic nuclear forces. Our goal should be to ensure 
robust implementation of New START, while reaffirming and 
funding commitments on modernization.
    With regard to nuclear weapons, more broadly, it is my 
understanding the administration may soon complete its 
implementation study for the 2010 Nuclear Posture Review. 
Stories have appeared in the media that the administration is 
considering levels of nuclear weapons lower than those in 
article II of the New START Treaty. I hope our witnesses can 
clarify the President's position.
    I simply would say that our country is strongest and our 
diplomacy is most effective when nuclear policy is made by 
deliberate decisions in which both the legislative and 
executive branches fully participate. This process should begin 
with the President of the United States. As the Chief Executive 
and Commander in Chief, he needs to engage with Congress on 
this topic personally, and he needs to weigh in more heavily on 
nuclear funding decisions.
    Last, I would note that the Nunn-Lugar umbrella agreement 
with Russia expires next year. I would appreciate an update 
regarding the status of our negotiations with Russia on the 
umbrella agreement.
    I look forward to the testimony of our witnesses, and I 
thank you, Mr. Chairman.
    The Chairman. Thanks very much, Senator Lugar. Appreciate 
it.
    I am going to reserve my time for questions, I just want to 
give you a heads-up. So that I am going to begin with Senator 
Lugar. We will go to Senator Udall, then Senator Corker, so 
that we can expedite here.
    And if everybody could summarize their testimony in 
approximately 5 minutes, we would appreciate it. Full 
testimonies will be placed in the record as if delivered in 
full.
    We will begin with Secretary Gottemoeller, then Secretary 
D'Agostino and Creedon. Thank you.

STATEMENT OF HON. ROSE GOTTEMOELLER, ACTING UNDER SECRETARY FOR 
  ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Gottemoeller. Thank you very much, Mr. Chairman.
    Thank you, Senator Lugar.
    Senators, it is my pleasure and my honor to be here today 
again before the Senate Foreign Relations Committee with an 
opportunity to provide you an update on the implementation of 
the treaty between the United States of America and the Russian 
Federation on Measures for the Further Reduction and Limitation 
of Strategic Offensive Arms, or the New START Treaty.
    It is a pleasure to be here today also with my colleagues 
from the interagency, with Tom D'Agostino of the DOE National 
Nuclear Security Administration and Madelyn Creedon of the 
Office of the Secretary of Defense. I think it is a good sign 
of the very solid working relationship that we have had in the 
interagency, both in the negotiation of this treaty and now in 
its implementation.
    As you know, New START celebrated its first birthday this 
past February. Senator Kerry just referred to that. Its 
ratification and entry into force would not have been possible 
without the strong bipartisan support of this body. We are 
grateful to Senators on both sides of the aisle for supporting 
a treaty that has done so much to strengthen global and 
national security.
    When the treaty is fully implemented, it will result in the 
lowest number of deployed nuclear warheads since the 1950s, the 
first full decade of the nuclear age--1,550 warheads deployed 
on or counted on 700 delivery vehicles, that is, 
intercontinental ballistic missiles, submarine-launched 
ballistic missiles, and bombers.
    To illustrate the great distance we have traveled in 
reducing our nuclear weapons, I would like to mention that when 
the START Treaty was signed in July 1991, the United States and 
the U.S.S.R. had at that time each deployed approximately 
10,550 nuclear warheads.
    The current implementation process is providing ongoing 
transparency and predictability regarding the world's two 
largest deployed nuclear arsenals, while preserving our ability 
to maintain the strong nuclear deterrent that remains an 
essential element of U.S. national security and the security of 
our allies and friends.
    To date, the implementation process has been very positive 
and pragmatic. Under New START, we are continuing the 
professional working relationship that was established with our 
Russian counterparts during the negotiation process in Geneva.
    In the first treaty year, the United States and Russian 
Federation kept pace with each other in conducting inspections. 
Both parties conducted the yearly maximum of 18 inspections. So 
far during this treaty year, the Russian Federation has 
conducted eight inspections and the United States has conducted 
seven inspections. Therefore, Chairman, I have to update you a 
bit. We are now up to 25 short-notice inspections since the 
treaty entered into force.
    These inspections have taken place on intercontinental 
ballistic missiles, submarine-launched ballistic missiles, and 
heavy bombers at their operating bases; storage facilities; 
conversion or elimination facilities; and test ranges.
    Through inspection activities, we have acquired new and 
valuable information. For example, New START includes intrusive 
reentry vehicle inspections that are designed to confirm the 
exact number of reentry vehicles, or warheads, on individual 
missiles selected for inspection. We are now able to confirm 
the exact number of warheads on any randomly selected Russian 
ICBM and SLBM, something that we were not able to do under the 
1991 START Treaty.
    Another aspect of treaty implementation is the exhibition 
process. These exhibitions provide both parties with an 
opportunity to see new types of strategic offensive arms, view 
distinguishing features, and confirm declared data.
    Both sides have conducted delivery vehicle exhibitions. In 
March 2010, the United States conducted exhibitions of its B-1B 
and 
B-2A heavy bombers. Following that, the Russian Federation 
conducted exhibitions of its RS-24 ICBM and associated mobile 
launcher.
    That was the first time we had a chance to see the RS-24--
the new Russian mobile missile--and its launch vehicle. This 
exhibition provided us with a great amount of information that 
we would not otherwise have had.
    The United States and the Russian Federation have also been 
sharing a veritable mountain of data with each other. The 
chairman mentioned the notification process. At this point, 
since entry into force, we have exchanged over 2,500 
notifications through our Nuclear Risk Reduction Centers.
    They help to track the movement and changes in the status 
of systems on a day-in, day-out basis. That, combined with the 
databases that we exchange every 6 months, gives us an 
opportunity to have a kind of living database, a truly real-
time look at what is going on inside the Russian strategic 
forces.
    I will draw my remarks to a close at this point, but I just 
want to underscore that our experience so far is demonstrating 
that the New START's verification regime works and will help to 
push open the door to new and more complicated verification 
techniques in the future. We look forward to reporting on 
further success in the implementation of this treaty, and I 
thank you for the opportunity to make these remarks to you 
today.
    Thank you very much.
    [The prepared statement of Ms. Gottemoeller follows:]

Prepared Statement of Acting Under Secretary of State Rose Gottemoeller

    Mr. Chairman, Senator Lugar, and members of the Foreign Relations 
Committee, thank you for this opportunity to provide an update on the 
implementation of the treaty between the United States of America and 
the Russian Federation on Measures for the Further Reduction and 
Limitation of Strategic Offensive Arms (New START).
    As you know, New START celebrated its first birthday this past 
February. Its ratification and entry into force would not have been 
possible without the strong bipartisan support of this body. We are 
grateful to Senators on both sides of the aisle for supporting a treaty 
that has done so much to strengthen global and national security.
    When the treaty is fully implemented, it will result in the lowest 
number of deployed nuclear warheads since the 1950s, the first full 
decade of the nuclear age: 1,550 warheads deployed on 700 delivery 
vehicles, that is, intercontinental ballistic missiles, submarine-
launched ballistic missiles, and bombers.\1\ To illustrate the great 
distance we have traveled in reducing our nuclear weapons, I would like 
to mention that when the START Treaty was signed in July 1991, the 
United States and the former Union of Soviet Socialist Republics (USSR) 
each deployed approximately 10,500 nuclear warheads.
---------------------------------------------------------------------------
    \1\ The treaty's central limits are as follows: 700 deployed ICBMs, 
deployed SLBMs and deployed heavy bombers; 1,550 warheads on deployed 
ICBMs and SLBMs and nuclear warheads counted for deployed heavy 
bombers; and 800 deployed and nondeployed ICBM launchers, SLBM 
launchers, and heavy bombers.
---------------------------------------------------------------------------
    The current implementation process is providing ongoing 
transparency and predictability regarding the world's two largest 
deployed nuclear arsenals, while preserving our ability to maintain the 
strong nuclear deterrent that remains an essential element of U.S. 
national security and the security of our allies and friends.
    The verification regime for New START is a detailed and extensive 
set of data exchanges and timely notifications covering all strategic 
offensive arms and facilities covered by the treaty, as well as onsite 
inspections, exhibitions, restrictions on where specified items may be 
located, and additional transparency measures.
    In negotiating the treaty, both sides worked hard to find 
innovative new mechanisms to aid in the verification of the treaty and 
the results of that work are already evident. The regime provides for 
effective verification and, at the same time, is simpler to implement 
and lessens disruptions to the day-to-day operations of both sides' 
strategic forces.
    These verification mechanisms are enabling us to monitor and 
inspect Russia's strategic nuclear forces to ensure compliance with the 
provisions of the treaty. For both the United States and Russia, 
accurate and timely knowledge of each other's nuclear forces helps to 
prevent the risks of misunderstandings, mistrust, and worst-case 
analysis and policymaking.
    To date, the implementation process has been positive and 
pragmatic. Under New START, we are continuing the professional working 
relationship that was established during the negotiation process in 
Geneva.
    In the first treaty year, the United States and the Russian 
Federation kept pace with each other on conducting inspections. Both 
Parties conducted the yearly maximum of 18 inspections. So far this 
treaty year, the Russian Federation has conducted 8 inspections and the 
United States has conducted 6 inspections. These inspections have taken 
place at intercontinental ballistic missile (ICBM), submarine-launched 
ballistic missile (SLBM), and heavy bomber bases; storage facilities; 
conversion or elimination facilities; and test ranges.
    Through inspection activities, we have acquired new and valuable 
information. For example, New START includes intrusive reentry vehicle 
inspections that are designed to confirm the exact number of reentry 
vehicles (or warheads) on individual missiles selected for inspection. 
We are now able to confirm the actual number of warheads on any 
randomly selected Russian ICBM and SLBM--something we were not able to 
do under the 1991 Strategic Arms Reduction Treaty (START).
    Another new feature in the New START is that each ICBM, SLBM, and 
heavy bomber has been assigned a unique identifier (UIDs)--a license 
plate, if you will. These UIDs are helping both sides with a ``cradle 
to grave'' tracking of the location and status of strategic offensive 
arms from arrival at an operating base, movement between facilities, 
changes in deployment status, maintenance or storage, to eventual 
conversion or elimination.
    Another aspect of treaty implementation is the exhibition process. 
The purpose of exhibitions is to demonstrate distinguishing features, 
to confirm technical characteristics of new types, and to demonstrate 
the results of conversion of the first item of each type of strategic 
offensive arms subject to this treaty. These exhibitions provide both 
Parties with an opportunity to see new types of strategic offensive 
arms, view distinguishing features, and confirm declared data. These 
exhibitions assist in the conduct of onsite inspections. They also 
serve to enhance transparency and provide a better understanding of 
each other's systems.
    Both sides have conducted delivery vehicle exhibitions. In March 
2011, the United States conducted exhibitions of its B-1B and B-2A 
heavy bombers. Following that, the Russian Federation conducted 
exhibitions of its RS-24 ICBM and associated mobile launcher. That was 
the first time we had a chance to see the RS-24, the new Russian mobile 
missile with multiple warheads. This exhibition provided us with a 
great amount of information we would have not otherwise had.
    In March 2012, the United States conducted the first of four one-
time cruise missile submarine (SSGN) exhibitions. The purpose of these 
exhibitions is to confirm that the launchers on these submarines are 
incapable of launching SLBMs.
    The United States and the Russian Federation have also been sharing 
a veritable mountain of data with each other. Since entry into force, 
we have exchanged over 2,500 notifications through our Nuclear Risk 
Reduction Centers (NRRC). These notifications help to track movement 
and changes in the status of systems. For example, a notification is 
sent every time a heavy bomber is moved out of its home base for more 
than 24 hours. Additionally, when the United States conducts a flight 
test of an ICBM or SLBM, the NRRC will notify the Russian National 
Center 1 day in advance of the flight test. The Russians provide the 
same information for their launches. Our center receives from the 
Russian NRRC the incoming notification via our secure government-to-
government communications link. We translate it, make secure telephonic 
alerts, and issue a State Department cable to concerned U.S. agencies 
within 1 hour.
    On top of the individual notifications, we exchange a comprehensive 
database of strategic forces covered by the treaty every 6 months. This 
full account combines with the notifications to create a living, 
growing document that continuously tracks each side's strategic nuclear 
forces.
    These data exchanges are providing us with an even more detailed 
picture of Russian strategic forces than we were able to obtain from 
earlier exchanges and the inspections allow us to confirm the validity 
of that data. Of course, the verification regime is backed up by our 
own National Technical Means of verification, our satellites and other 
monitoring platforms.
    Another feature of the New START Treaty implementation process is 
the Bilateral Consultative Commission (BCC). This compliance and 
implementation body has met three times since entry into force. The BCC 
has produced Joint Statements and agreements, memorializing shared 
understandings of technical issues related to implementation 
activities. As in the implementation of the treaty overall the 
environment in the BCC has been one of practical problem-solving on 
both sides of the table.
    The latest session of the BCC was held in Geneva from January 24 to 
February 7, 2012. During the session, both sides continued their 
discussion on practical issues related to the implementation of the 
treaty. The United States and the Russian Federation reached agreement 
there on an outstanding issue from the negotiations--the exchange of 
telemetric information on an agreed number of ICBM and SLBM launches 
and the procedures for conducting demonstrations of recording media 
and/or telemetric information playback equipment. Since this agreement, 
both the United States and the Russian Federation have conducted 
demonstrations of telemetric information playback equipment and 
recording media to be used during telemetry exchanges. Telemetric 
information was exchanged between the Parties on April 6, 2012.
    Our experience so far is demonstrating that the New START's 
verification regime works, and will help to push the door open to new, 
more complicated verification techniques for the future. Verification 
will be crucial to any future nuclear reduction plans and the United 
States has made it clear that we are committed to continuing a step-by-
step process to reduce the overall number of nuclear weapons.
    Further, the outstanding working relationship that developed during 
the negotiations has carried over into the implementation phase, 
creating an atmosphere of bilateral cooperation to resolve 
implementation questions as they have arisen. We look forward to 
reporting further success and additional updates as New START 
implementation progresses.
    Thank you again for the opportunity to speak and I look forward to 
your questions.

    The Chairman. Thanks, Secretary Gottemoeller.
    Secretary D'Agostino.

 STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR OF THE 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION AND UNDER SECRETARY 
FOR NUCLEAR SECURITY, U.S. DEPARTMENT OF ENERGY, WASHINGTON, DC

    Mr. D'Agostino. Chairman Kerry, Ranking Member Lugar, 
members of the committee, thank you very much for the 
opportunity to testify today concerning the implementation of 
the New START Treaty, the nuclear deterrent, and the future of 
our nuclear security enterprise.
    I want to thank the chair and ranking for their continued 
bipartisan leadership on nuclear security issues in the U.S. 
Congress. In particular, I would like to recognize Ranking 
Member Lugar for his distinguished career as a champion for 
nuclear nonproliferation policy.
    Senator Lugar, your leadership on treaty negotiations and 
verification, thoughtful and measured diplomacy, and efforts to 
reduce the threat of nuclear, chemical, and biological weapons 
are unique in both the U.S. Senate and American history.
    The Nunn-Lugar Cooperative Threat Reduction Program has led 
to the implementation of the most significant security measures 
since the end of the cold war, and it continues to be a real 
force in preventing terrorism. I sincerely hope that your voice 
continues to remain a major part of our future policy 
discussions.
    Thank you, sir.
    Working closely with our colleagues at the Department of 
State and Department of Defense, the National Nuclear Security 
Administration has played an essential role in the New START 
Treaty negotiations and continues to contribute directly to 
successful implementation of the treaty. With entry into force, 
we continue to support inspection implementation matters within 
the United States.
    This has included our work with the United States 
interagency and sites across the nuclear security enterprise to 
review and assess Russian Federation radiation detection 
equipment for use during inspections in the United States. 
Through Sandia National Laboratories, we are conducting 
technical analyses and support on inspection matters.
    The extensive notifications, inspections, and exchange of 
telemetric information required by the treaty have provided the 
tools the United States and the Russian Federation require, 
ensuring transparency and predictability regarding each other's 
strategic nuclear forces. This allows us to plan future 
stockpile and infrastructure requirements with increased 
confidence.
    And the President's commitment in this area and to the 
obligations of the New START is evident. NNSA has seen 
consistent support since he took office in 2009. In fiscal year 
2013, if the 2013 appropriations and authorizations comes 
through, this will result in a close to 20 percent increase in 
our program in the past few years, and this is unprecedented.
    The administration and Congress recognized the need to 
sustain our nuclear weapons in the stockpile and to modernize 
the infrastructure and the people capabilities of the 
enterprise to ensure our stockpile remains safe, secure, and 
effective. We are extending the life of approximately 80 
percent of our active stockpile to ensure that it remains a 
viable and credible deterrent for decades to come.
    Four weapons systems--the W76, the B61, the W78, and W88--
are currently beyond the Phase 6.1 process in life extensions. 
We are in production with the W76-1. We are about to transition 
to development engineering on the B61 warhead, and we have 
commenced life extension feasibility studies for the W78 and 
the W88.
    As you are all aware, the administration is making these 
investments at a time of great fiscal pressure. Between the 
Budget Control Act passed by Congress, the four life extension 
programs I previously mentioned, and our aging infrastructure, 
hard choices have had to be made. And we are continuously 
assessing our scope of work with the Defense Department, 
challenging our people to drive efficiencies.
    However, the investments continue. And just this week, a 
key piece of the Chemistry and Metallurgy Research Replacement 
Facility opened at Los Alamos National Laboratory. The 
radiological laboratory and office building will play a key 
role implementing the United States plutonium strategy, 
allowing us to maintain our world-class plutonium capabilities 
when we complete the program operations in the old existing 
CMR.
    We also identified an important synergy with our plutonium 
disposition mission in South Carolina and can support both 
feedstock production for MOX plant and sustained expertise at 
Los Alamos in the existing plutonium facility No. 4.
    Our next major investment in the future of our enterprise 
and deterrent is the Uranium Processing Facility in Oak Ridge, 
TN. The Nation has no other option for maintaining highly 
enriched uranium processing capabilities in existing 
facilities. There are no other options.
    We are replacing these required capabilities in order to 
maintain our deterrent and fuel our Navy submarines and 
aircraft carriers. We have also broken ground on the High 
Explosives Pressing Facility at Pantex to ensure the continuity 
for our life extension work, taking care of our stockpile.
    NNSA continues to work closely with our partners at the 
Department of Defense to ensure the proper balance of resources 
and requirements, and we are continuing this work throughout 
the summer. This includes all of the programs that I have 
mentioned earlier.
    Our budget request includes the funding necessary for 
research, development, test, and assessment of advanced 
monitoring and assessment capabilities. And looking ahead, we 
stand ready to support future treaty negotiations and 
development assessment processes.
    Again, I thank you for the opportunity to be here today, 
and I look forward to your questions.
    [The prepared statement of Mr. D'Agostino follows:]

       Prepared Statement of Under Secretary Thomas P. D'Agostino

    Chairman Kerry, Ranking Member Lugar, and members of this 
committee, thank you for the opportunity to testify today about 
implementation of the New START Treaty, the nuclear deterrent, and the 
future of our nuclear security enterprise.
    Before I begin, I want to thank the chair and ranking member for 
their continued bipartisan leadership on nuclear security issues in the 
U.S. Congress. In particular, I would like to recognize Ranking Member 
Lugar for his distinguished career as a champion for nuclear 
nonproliferation policy.
    Senator Lugar, your leadership on treaty negotiations and 
verification, thoughtful and measured diplomacy, and efforts to reduce 
the threat of nuclear, chemical, and biological weapons are unique in 
both the U.S. Senate and American history. The Nunn-Lugar Cooperative 
Threat Reduction Program has led to some of the most significant 
security measures implemented since the end of the cold war, and has 
had a very real impact on preventing terrorism. Your leadership on 
these issues over the years will be sorely missed by everyone working 
to make the world safer for our children and grandchildren. I will 
personally miss working with you, and I sincerely hope that your voice 
remains a major part of future policy discussions.
    Working with our colleagues at the Departments of State and 
Defense, the NNSA played an essential role throughout New START Treaty 
negotiations, and continues to contribute very directly to successful 
implementation of the treaty.
    NNSA experts led negotiations on behalf of the U.S. Government for 
the notifications regime under New START, which since entry-into-force 
of the treaty has resulted in the exchange of over 2,400 notifications 
on strategic forces matters between the United States and Russian 
Federation. Our experts also led negotiations for the exchange of 
telemetric information, and since entry-into-force have worked to 
ensure the successful commencement of this exchange. This included 
leading negotiations within the treaty's Bilateral Consultative 
Commission (BCC) to complete the first two BCC Agreements, which 
provided the necessary treaty-based framework to allow the exchange of 
telemetric information to begin. As a result, in April of this year the 
United States and Russia exchanged the first set of telemetric 
information on missile flight tests since expiration of the original 
START Treaty in 2009. NNSA also led the negotiations for the treaty's 
definitions, which are relied upon for the full range of treaty 
implementation matters.
    In addition to leading three working groups during negotiations, we 
contributed significantly to several of the other elements of the 
treaty, including the development of the treaty's inspection regime. 
With entry-into-force, we have continued to support inspection 
implementation matters within the United States. This has included 
essential work with the U.S. Interagency and sites across the nuclear 
security enterprise to review and assess the Russian Federation's 
radiation detection equipment (RDE) for use during inspections in the 
United States. Through Sandia National Laboratories, we are also 
conducting technical analyses associated with RDE measurements, and are 
providing other technical support on inspection matters.
    Through the New START Treaty's extensive notifications, 
inspections, and the exchange of telemetric information, the United 
States and Russian Federation once again have the tools in place to 
ensure transparency and predictability regarding each other's strategic 
nuclear forces. It is this predictability that is of the greatest 
benefit to us. It allows us to plan future stockpile size and 
infrastructure requirements with significantly greater confidence.
    The President's commitment to the obligations codified as part of 
New START is evident: NNSA, and the weapons activities account in 
particular, has seen consistent support since he took office in 2009. 
The administration and the Congress recognized the need to sustain the 
nuclear weapons in the stockpile and modernize the infrastructure and 
capabilities of the nuclear security enterprise. This September we will 
mark 20 years since the end of underground testing, and, due to the 
investments we have made in science-based stockpile stewardship, we 
know more about how our weapons age and perform than ever before. I 
have said this in the past and will reiterate again now: our stockpile 
is safe, secure, and effective.
    Right now, we are extending the life of approximately 80 percent of 
our active stockpile to ensure that it remains a viable, credible 
deterrent for decades to come. Four weapons systems--the W76, B61, W78, 
and W88--are currently beyond phase 6.1 in the life extension process. 
We are in production with the W76-1, we are about to transition to 
Development Engineering on the B61-12, and we have begun life extension 
Feasibility Studies on the W78 and W88.
    As you are all aware, the administration is making these 
investments at a time of great fiscal pressure. Between the Budget 
Control Act, passed by this Congress; the four life extension programs 
I mentioned; and our aging infrastructure, which, contrary to some 
opinions, has many features other than replacing the Chemistry and 
Metallurgy Research (CMR) facility at Los Alamos, hard choices have had 
to be made. We looked at our scope of work, we have strongly challenged 
our people to do more with less without compromising safety or quality, 
and we have made tough decisions focused on the future. NNSA continues 
to work with our partners at the Department of Defense (DOD) to balance 
resources and requirements, and that commitment has not waivered 
despite many external pressures.
    For example, just this week a key piece of the Chemistry and 
Metallurgy Research Replacement (CMRR) facility opened. The 
Radiological Laboratory, Utility, and Office Building (RLUOB) will play 
a key support role implementing the United States plutonium strategy, 
allowing us to maintain our world-class plutonium capabilities when we 
complete program operations in the aging CMR facility in approximately 
2019. In addition, we will consider options for staging bulk quantities 
of plutonium needed for future program use in Nevada at the Device 
Assembly Facility; evaluate options to share material characterization 
workload between the PF-4 facility at LANL and Building 332 as a Hazard 
Category 2, Security Category 3 nuclear facility at Lawrence Livermore 
National Laboratory; and accelerate plans to process, package, and ship 
excess special nuclear material in PF-4 for disposition. We also 
identified an important synergy with our plutonium disposition mission 
in South Carolina and can support both feedstock production for the MOX 
fuel fabrication plant and sustain plutonium expertise for defense 
purposes by utilizing the 
PF-4 facility at Los Alamos. These actions allow NNSA to continue 
current plutonium operations for the national security enterprise while 
we work to define a longer term strategy that aligns capabilities and 
future stockpile needs.
    Our next major investment in the future of our enterprise and the 
nuclear deterrent is the Uranium Processing Facility (UPF) in Oak 
Ridge, TN. The Nation does not have any options for maintaining highly 
enriched uranium processing capabilities in existing facilities. When 
looking at consequences and likelihood of infrastructure failures 
across the nuclear security enterprise, our greatest risk is the 
potential failure of Building 9212 at Y-12, originally built in 1952, 
which would directly impact our ability to modernize the stockpile. We 
must replace the required UPF capability if we are going to maintain 
our deterrent and fuel our Navy's submarines and aircraft carriers. UPF 
will allow us to move uranium capabilities out of the decaying building 
9212 and to consolidate and modernize all other highly enriched uranium 
processing capabilities that are in Buildings 9215, 9998, and 9204-2E 
to provide safer and more efficient operations. We have also broken 
ground on a new High Explosive Pressing Facility at Pantex to ensure 
continuity of capability for planned Life Extension Program workload.
    The Nuclear Weapons Council (NWC) has been an integral part of this 
process. It would be irresponsible to make such forward-looking 
decisions without first talking to our partners in the DOD. As part of 
that process, the NWC approved a number of critical schedule 
adjustments in March that include the W76, B61, W78, W88, and the CMRR 
and UPF.
    Beyond that, NNSA and the Office of the Secretary of Defense's Cost 
Assessment and Program Evaluation (CAPE) team have an interagency group 
doing further analysis on balancing the resources and requirements for 
the nuclear security enterprise. The NNSA CAPE effort will inform the 
President's Budget Request for FY 2014, which is currently being 
formulated.
    Our coordination with DOD via the NWC is significant and detailed. 
We're demonstrating infrastructure responsiveness by increasing neutron 
generator production for the W78 when needed to meet changing stockpile 
requirements. We're continuing to sustain and improve the stockpile by 
replacing gas transfer systems to improve component lifetime and weapon 
performance margin. And we're working with the Department of the Air 
Force on an Analysis of Alternatives for the future of nuclear-capable 
air delivered cruise missiles. Our decisions are not made in a vacuum, 
and any impact that NNSA's priorities may have on the stockpile are 
fully informed by our working relationship with the NWC.
    Looking ahead, consistent with the President's nuclear security 
agenda, the results of the Nuclear Posture Review, and instructions 
from the Senate to pursue negotiations for nonstrategic nuclear 
weapons, NNSA stands ready to support future negotiations and is 
developing and assessing capabilities to enable potential future 
monitoring and verification initiatives. We need to do our homework now 
to prepare for the future in a responsible manner, so that the United 
States can achieve its arms control and nonproliferation objectives 
while continuing to ensure the safety and security of our nuclear 
weapons stockpile and the facilities across the Nuclear Security 
Enterprise.
    Toward this end, NNSA's FY13 request includes funding to research, 
develop, test and assess advanced monitoring and verification 
capabilities, including collaborative initiatives with foreign 
partners. These include advanced radiation detection techniques to 
confirm the presence of nuclear weapons while protecting sensitive 
information, chain of custody capabilities to monitor and track weapons 
and key components, and capabilities to confirm nuclear weapons 
dismantlement and disposition. This is important work and we must 
continue developing and assessing these capabilities today.
    Again, I thank you for the opportunity to be here today. I thank 
all of you, particularly Ranking Member Lugar, for your work keeping 
the American people safe, and I look forward to any questions you may 
have.

    The Chairman. Thank you very much, Secretary D'Agostino. I 
appreciate it.
    Let me just mentioned that Senator Udall left, and he asked 
me--he didn't want to leave, but he is opening the Senate. He 
is presiding over the Senate. So he had to leave in order to 
open our session.
    Secretary Creedon.

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
   DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, U.S. DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Ms. Creedon. Chairman Kerry, Ranking Member Lugar, and 
members of the committee, I, too, am pleased to be here today 
to discuss implementation of the New START Treaty and its 
implications for our nuclear forces and policy.
    But I would like to pause for just a minute and also thank 
Senator Lugar. As a native Hoosier, it has been with great 
pride that I have personally enjoyed the leadership of Senator 
Lugar over the course of the years. And his work in countering 
the threats of weapons of mass destruction, particularly his 
work with Senator Nunn in the CTR program, I truly believe is 
work that has changed the course of history.
    And on a personal note, I also want to thank Senator Lugar, 
who has spoken on my behalf at my confirmation hearing as well. 
So thank you, sir.
    So today I will address not only the implications for our 
nuclear forces and policy of the New START Treaty, but also 
some of the misperceptions that have been associated with that 
treaty and related matters.
    Implementation of the New START Treaty is proceeding 
successfully, and DOD is fully engaged in meeting its treaty 
obligations. To date, DOD has hosted multiple inspection 
activities at U.S. strategic facilities and participated in 
reciprocal activities at Russian strategic facilities.
    The Defense Threat Reduction Agency has played a vital role 
in fulfilling DOD's New START Treaty obligations. Personnel 
from the Defense Threat Reduction Agency staff, train, equip, 
and lead the United States teams that conduct onsite 
inspections in Russia and escort Russian teams inspecting our 
facilities.
    DOD facilities and personnel have been fully prepared to 
receive Russian inspectors, thanks to the DTRA efforts. The 
United States is on track to complete the reductions necessary 
to comply with the New START Treaty's central limits by 
February of 2018. DOD plans to retain 240 deployed Trident 
SLBMs on Ohio class submarines, up to 60 deployed heavy 
bombers, and up to 420 single warhead Minutemen III ICBMs.
    To meet the treaty's central limits, the administration 
plans to convert or eliminate a yet-to-be determined 
combination of ICBM launchers, SLBM launchers, or nuclear-
capable heavy bombers. Initial reductions of strategic 
offensive arms will come from the conversion or elimination of 
systems accountable under the START Treaty, but no longer 
maintained in a deployable status; our phantom silos and 
bombers, which will be focused on first.
    Most of the reductions in deployed systems will occur 
toward the end of the 7-year reduction period. DOD is working 
to complete a comprehensive drawdown plan, a substantial 
portion of which will be completed to support the FY 2014 
budget request. We are committed to providing Congress with 
updates on our plans concerning force reductions as they become 
available.
    As the President's budget request for fiscal year 2013 
makes clear, DOD is committed to modernizing the delivery 
systems covered by the New START Treaty that underpin nuclear 
deterrence. The service life of our current Trident II D5 SLBMs 
is being extended to 2042. Construction of the first Ohio class 
replacement submarine is now scheduled to begin in 2021.
    The administration plans to sustain the Minuteman III ICBMs 
through 2030, and the United States will maintain two nuclear-
capable B-52H strategic bomber wings and one B-2A wing. This 
year, the Department started a program for a new long-range 
nuclear-capable penetrating bomber.
    DOD is also continuing to develop concepts and technologies 
associated with boost-glide systems that could provide the 
basis for a conventional prompt global strike capability. 
Boost-glide systems would not be subject to the New START 
Treaty, but I know there is significant interest in those 
capabilities.
    A number of misperceptions have emerged since the New START 
Treaty was signed. First is that the New START Treaty imposes 
unilateral constraints on the United States. That is not the 
case.
    New START limits capture both United States and Russian 
strategic forces and will constrain Russia as it modernizes its 
delivery systems with several substantially MIRVed new 
strategic missiles.
    Second is that New START included a ``secret deal'' that 
places meaningful limits on U.S. missile defenses and 
conventional prompt global strike capabilities. This, too, is 
incorrect.
    The administration is moving forward to implement all four 
phases of the European Phased Adaptive Approach for missile 
defense and will not accept limits on U.S. missile defenses, 
despite Russia's objections and protests. DOD is funding the 
continued development and testing of potential conventional 
prompt global strike capabilities, and while we have no plans 
to replace nuclear warheads with conventional warheads and 
ICBMs or SLBMs, the New START Treaty would not prohibit such a 
decision.
    A third critique about the New START is that it fails to 
capture nonstrategic or ``tactical'' nuclear weapons within the 
treaty's limits. The administration is ready to negotiate on 
nonstrategic as well as nondeployed nuclear weapons with Russia 
in the next round of arms control talks, as has been made clear 
when signing the New START Treaty in April 2010 and during the 
Senate debate over the advice and consent of the ratification 
of the treaty.
    I also would like to reiterate that no one in the 
administration has walked away from our commitment to 
modernization, even as the Budget Control Act drives difficult 
decisions. While the Department has done much to mitigate the 
efforts of the Budget Control Act, a viable plan to sustain and 
modernize the nuclear forces, sequestration, however, I should 
add, would be devastating.
    Maintaining strategic stability, assuring allies, and 
sustaining a safe, secure, and effective deterrent require a 
partnership between the executive branch and Congress. 
President Obama has demonstrated his commitment to these 
priorities, and we hope Congress will demonstrate that same 
commitment.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Creedon follows:]

       Prepared Statement of Assistant Secretary Madelyn Creedon


                              INTRODUCTION

    Chairman Kerry, Ranking Member Lugar, and members of the Committee, 
I am pleased to appear here today with Acting Under Secretary of State 
Gottemoeller and Administrator D'Agostino to discuss implementation of 
the New START Treaty.
    I would like to touch on three topics: the status of our 
implementation of the New START Treaty; its implications for our 
nuclear forces and policy; and work underway to ensure a future nuclear 
force structure in line with the President's vision. I would also like 
to take this opportunity to address some misperceptions associated with 
the New START Treaty and related matters.

                          THE NEW START TREATY

    As Acting Under Secretary Gottemoeller has discussed in her 
statement, implementation of the New START Treaty is proceeding 
successfully. I am pleased to report that DOD is also fully engaged in 
meeting its obligations under the New START Treaty.
    The continuing successful implementation of the New START Treaty is 
the result of the significant amount of work by many departments and 
agencies. It is a true interagency partnership and an example of how 
well our organizations can work together for a common goal--in this 
case, taking concrete steps toward the President's goal of a world 
without nuclear weapons.
    During the first year of the treaty, the United States and the 
Russian Federation each completed its annual quota of 18 onsite 
inspections and both sides appear likely to do so again during Treaty 
Year Two. The Parties are exchanging updates to their databases on 
strategic offensive arms twice a year and delegations have met under 
the Treaty's Bilateral Consultative Commission to discuss 
implementation issues.
    The Department of Defense is responsible for implementing the 
majority of U.S. obligations under the treaty. Personnel from the 
Defense Threat Reduction Agency (DTRA) staff, train, equip and lead the 
U.S. teams that conduct onsite inspections in Russia and escort Russian 
teams inspecting our facilities. To date, DOD has hosted 29 inspections 
and exhibitions at U.S. strategic facilities throughout the United 
States and has participated in 26 inspection activities at Russian 
strategic facilities. Such onsite inspections are the linchpin of the 
New START Treaty's verification framework. DTRA inspectors and escorts 
are responsible for observing, documenting, and reporting the factual 
findings of their inspection activities to 
the interagency community responsible for making verification and 
compliance judgments.
    DTRA also works closely with the DOD Office of Treaty Compliance 
and the military services to maintain the readiness of U.S. facilities 
for New START inspection activity. This involves working through the 
inspection procedures for each site, conducting site-assistance visits 
as needed, and conducting mock inspections. These events provide 
opportunities for DTRA to simulate actual inspections and refine 
training for inspection and base personnel. As a result of the DTRA 
actions, DOD facilities and personnel have been fully prepared to 
receive the Russian inspectors during the 29 inspections and 
exhibitions that have taken place in the United States since New START 
entered into force.
    Representatives from DOD serve as essential members of the U.S. 
delegation to the Bilateral Consultative Commission (BCC)--the 
bilateral body chartered by the treaty to promote the objectives and 
implementation of the provisions of the New START Treaty. Since the 
treaty entered into force in February 2011, the BCC has met three times 
to discuss and resolve a variety of early implementation issues ranging 
from the format of inspection activity reports to the amount of 
telemetric information from strategic ballistic missile launches that 
the Parties agree to exchange. The Bilateral Consultative Commission 
builds directly on the experiences and lessons learned from the now-
expired START Treaty's Joint Compliance and Inspection Commission 
(JCIC), and continues the longstanding professional relationship 
between treaty experts of both Parties. We anticipate the next session 
of the BCC will be held this fall.

                            FORCE STRUCTURE

    The United States is on track to complete the reductions needed to 
comply with the New START central limits of 1,550 warheads on deployed 
intercontinental ballistic missiles (ICBMs), deployed submarine-
launched ballistic missiles (SLBMs), and counted for deployed heavy 
bombers; 700 deployed ICBMs, SLBMs, and heavy bombers; and 800 deployed 
and nondeployed ICBM and SLBM launchers and heavy bombers by the 
February 2018 deadline set in the treaty.
    The Department of Defense has established a baseline force 
structure to guide the implementation planning, one that will not 
require changes to current basing arrangements. The Department plans to 
retain 240 deployed Trident II D5 SLBMs distributed among Ohio-class 
submarines. This is the most survivable leg of the triad. Recognizing 
the flexibility of the bomber leg of the triad, we plan to retain up to 
60 deployed heavy bombers, including all operational B-2s. Finally, the 
United States also plans to retain up to 420 deployed single warhead 
Minuteman III ICBMs.
    To achieve this baseline force structure, the United States 
currently plans to make most of the reductions in deployed systems 
toward the end of the 7-year reduction period. To meet the treaty's 
central limits, the administration plans to convert or eliminate a yet-
to-be determined combination of ICBM launchers, SLBM launchers, or 
nuclear-capable heavy bombers.
    The initial reductions of the strategic offensive arms will come 
from the conversion or elimination of systems that were accountable 
under the START Treaty, but are no longer maintained in a deployable 
status. These previously retired systems were often referred to as 
``phantoms'' in that they were no longer deployed but still counted 
under the START Treaty.
    These phantoms include 103 empty ICBM launchers and 47 heavy 
bombers--a total of 150 systems removed from accountability under the 
New START Treaty. These planned reductions include: 50 empty 
Peacekeeper ICBM silos at F.E. Warren U.S. Air Force Base (AFB); 50 
empty Minuteman III ICBM silos at Malmstrom AFB; three excess ICBM test 
silos at Vandenberg AFB; and 34 B-52Gs and 13 B-52Hs currently stored 
at Davis-Monthan AFB. The estimated cost to eliminate or convert these 
systems is $47 million.
    The Department is working to complete a comprehensive plan for the 
drawdown, which must be completed no later than February 2018. A 
substantial portion of this planning effort will be completed to 
support the FY 2014 budget request. We will continue to maintain the 
flexibility to make the necessary additional decisions needed to 
implement these reductions during the latter part of the 7-year 
drawdown period.
    We are committed to providing Congress with updates on our plans 
concerning these force reductions as they become available.

                          FORCE MODERNIZATION

    As the President's Budget for Fiscal Year 2013 (FY 2013) makes 
clear, DOD has important work underway to modernize the delivery 
systems covered by the New START Treaty and that underpin nuclear 
deterrence. The 2010 Nuclear Posture Review (NPR) concluded that the 
United States will retain a nuclear triad under the New START Treaty 
composed of ICBMs, SLBMs, and nuclear-capable heavy bombers; the 
President's budget request for fiscal year 2013 reflects this 
commitment.
    Sustaining the sea-based leg of our nuclear deterrent is 
particularly vital as we move to lower numbers under New START. The 
service life of our current Trident D5 missiles is being extended to 
2042. Due to budget constraints, construction of the first Ohio-class 
replacement submarine is scheduled to begin in 2021. While this 
represents a 2-year slip compared with last year's plan, the Navy 
believes it can manage the resulting challenges and maintain our 
commitment to the United Kingdom regarding cooperation in the design of 
key elements of their new ballistic missile submarines (SSBN). The Navy 
is planning to build 12 new SSBNs with the first one scheduled to begin 
patrol in 2031. All DOD sustainment and modernization efforts for the 
submarine-based strategic nuclear deterrent are fully funded in the 
President's FY 2013-2017 request.
    The administration plans to sustain the Minuteman III ICBM system 
through 2030, as directed by Congress. Ongoing intensive flight test 
and surveillance efforts will, by 2017, help determine the investment 
necessary to achieve that date by providing better estimates for 
component age-out and system end-of-life. Additionally, the Air Force 
is nearing completion of a 2-year study examining options and required 
capabilities for a follow-on ICBM system. The study will make 
recommendations on whether we should begin a new ICBM development 
program or initiate a follow-on Minuteman III ICBM life extension 
program. A small-scale program to maintain a ``warm'' production line 
for Minuteman III solid rocket motors was completed this year (FY 
2012). A key modernization issue is sustainment of the large-diameter 
solid rocket motor industrial base. The President's budget request 
includes $8 million for the Air Force in FY 2013 to study and evaluate 
a path forward to sustain this key industrial capability.
    The United States will maintain two nuclear capable B-52H strategic 
bomber wings and one B-2A wing. Both bombers, however, are aging and 
sustainment and modernization funding will have to be provided to 
ensure they remain operationally effective through the remainder of 
their service lives. Funding has been allocated to upgrade these 
platforms; for example, to provide the B-2A with survivable 
communications, a more modern flight control system, and a new radar. 
The B-52 will also need various upgrades including for its bomb bay and 
survivable communications. These modernization and sustainment programs 
are needed to maintain the effectiveness of the current bomber force 
until the introduction of a new long-range bomber.
    This year, the Department started a program for a new, long-range, 
nuclear-capable, penetrating bomber that is fully integrated with a 
family of supporting aircraft and intelligence, surveillance, and 
reconnaissance assets. Because the growth of modern air defenses is 
putting even the bomber stand-off missions increasingly at risk, DOD is 
carrying out an analysis of alternatives (AOA), for a follow-on Air 
Launched Cruise Missile (ALCM). The final report for the AOA for the 
new system, the Long-Range Standoff (LRSO) missile, is due in late 
2012. The existing ALCM weapon system will be sustained until the LRSO 
can be fielded during the 2020s.
    DOD is also continuing to conduct research and testing to support 
the development of concepts and technologies associated with boost-
glide systems that could provide the basis for a conventional prompt 
global strike capability. These boost-glide systems are not associated 
with ICBMs or SLBMs and would not be subject to the provisions of the 
New START Treaty.

                DISPELLING CRITIQUES AND MISPERCEPTIONS

    A number of misperceptions have emerged since President Obama and 
then-Russian President Medvedev signed the New START Treaty in April 
2010.
    The first misperception is that the New START Treaty imposes 
unilateral constraints on the United States. This is not the case. The 
New START Treaty includes a package of negotiated limits that will 
apply equally to U.S. and Russian strategic forces. Like the United 
States, Russia will have to limit the number of strategic warheads it 
deploys to comply with the 1,550 limit of the treaty. This limit will 
constrain Russia as it modernizes its strategic nuclear delivery 
systems with the deployments of several substantially MIRVed new 
strategic missiles, including the MIRVed Yars ICBM, new Borey-class 
missile submarines carrying 16 MIRVed Bulava SLBMs, and, in the event 
it is deployed during the life of the treaty, a planned new ``heavy'' 
ICBM to replace the SS-18 that will almost certainly carry several 
MIRVs. Under the New START Treaty, the Russian modernization will be 
limited to 800 total and 700 deployed strategic delivery systems and 
1,550 warheads, the same limits applicable to U.S. systems. And this 
modernization, given the New START Treaty, does not endanger the 
ability of U.S. forces to fulfill U.S. deterrence requirements.
    The second misperception is that the New START Treaty included a 
``secret deal'' that places meaningful limits on U.S. missile defenses 
and conventional prompt global strike (CPGS) capabilities. This too is 
incorrect. The President made clear in his communication to the 
Congress in December 2010 that the administration will move forward 
with implementation of all four phases of the European Phased Adaptive 
Approach to missile defense, and will not accept limits on U.S. missile 
defenses. We have now deployed an AN/TPY-2 radar in Turkey; secured 
agreements with Romania and Poland so as to base land-based SM-3 
interceptors in each country in the 2015 and 2018 timeframes; and 
secured an agreement with Spain to host four Aegis BMD-equipped 
destroyers. Last month at the NATO summit in Chicago, the President 
announced that as NATO reached an interim ballistic missile defense 
capability, the United States is now providing support to NATO missile 
defense by placing the AN/TPY-2 radar under NATO command and control.
    We have proceeded down this path despite Russian objections and 
protests because we agree with our allies that missile defenses are 
necessary to ensure alliance security in the 21st century. We have also 
made clear publicly and privately to Russian officials that our missile 
defenses are being deployed to defend against North Korean and Iranian 
threats, not to undermine Russia's nuclear deterrent. But to reiterate, 
we have not limited and will not limit our planned missile defense 
deployments; indeed, we have made substantial progress since signing 
the New START Treaty.
    As mentioned above, the fiscal year 2013 budget request included 
funding for the continued development and testing of potential CPGS 
capabilities. This technology program remains focused on developing and 
demonstrating boost-glide technologies. When fielded, a CPGS capability 
could provide the President with a wider range of options to engage 
targets at strategic ranges in less than an hour, a capability that has 
previously only been available with nuclear-armed strategic missiles.
    While DOD has no plans to replace nuclear warheads with 
conventional warheads on Minuteman ICBMs or Trident SLBMs, the New 
START Treaty would not prohibit such a decision. Such systems would, 
however, remain accountable under the treaty.
    In short, there was no ``secret deal'' constraining U.S. missile 
defenses or CPGS capabilities.
    A third critique about the New START Treaty is that it fails to 
capture nonstrategic or ``tactical'' nuclear weapons within the 
treaty's limits. The United States wants to reduce further the total 
number of U.S. and Russian nuclear weapons including nonstrategic 
weapons. The administration made the decision early on not to seek to 
include nonstrategic and nondeployed nuclear weapons in New START, but 
to focus on putting in place a successor treaty to the START Treaty set 
to expire in December 2009, and thus ensure the continuation of 
verifiable limits on U.S. and Russian strategic nuclear forces. New 
START strengthens American security by putting new lower limits and a 
sound verification regime in place. That said, the administration has 
made clear its readiness to negotiate on strategic, nonstrategic, and 
nondeployed nuclear weapons with Russia in the next round of arms 
control talks. This commitment dates back to the President's statement 
at the signing of the New START Treaty in April 2010 and his 
communications with the Congress during the debate on advice and 
consent to ratification of the New START Treaty in 2010. More recently 
the NATO alliance has signaled its support for this effort in the 
recently completed Deterrence and Defense Posture Review.
    The final misperception associated with New START is that the 
administration acted in ``bad faith'' by committing to a modernization 
program in the ``Section 1251 Report'' prior to ratification in 2010 
and then abandoning the program once the Senate provided its advice and 
consent to ratification of the treaty. This is also not the case. The 
administration remains committed to a safe, secure, and effective 
nuclear arsenal and the nuclear enterprise that supports it and has 
requested the necessary funding to make that possible. No one in the 
Obama administration has walked away from our commitment to 
modernization, even as the Budget Control Act drives difficult 
decisions. The threat of sequestration, however, does raise significant 
concerns. While the Department has done much to mitigate the effects of 
the Budget Control Act to ensure a viable plan to sustain and modernize 
the nuclear forces, sequestration would be devastating.

                               CONCLUSION

    One of President Obama's first acts as President was to direct a 
comprehensive approach to address nuclear dangers. The Nuclear Posture 
Review and the New START Treaty reinforce strategic stability with 
Russia at lower force levels while ensuring that we have the 
capabilities necessary for effective deterrence and assurance. DOD 
continues to strongly support the New START Treaty. Maintaining 
strategic stability, assuring allies, and sustaining a safe, secure, 
and effective deterrent require a partnership between the executive 
branch and the Congress. President Obama has demonstrated his 
commitment to these priorities; we hope Congress will demonstrate the 
same commitment.

    The Chairman. Thank you very much.
    Senator Lugar, we are going to go to--Bertie, would you? We 
will go to 7 minutes because of the number of Senators.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Gottemoeller, I appreciate your recommendations 
of both the Russian Nuclear Risk Reduction Center and the U.S. 
Defense Threat Reduction Agency for their efforts during the 
initial implementation phase.
    Could you describe in greater detail the level of 
professionalism and cooperation between the inspectors of the 
Russian Nuclear Risk Reduction Center and our own Defense 
Threat Reduction Agency since the treaty came into force?
    Ms. Gottemoeller. Yes, Senator Lugar. I am happy to do so. 
We actually have a good, I would say, experience base. Some of 
the inspectors who are now serving as inspectors on the New 
START Treaty worked on inspections during the START Treaty, and 
that was 15 years worth of experience accumulated on both the 
Russian side and the United States side.
    They brought that experience to our delegation in Geneva 
and so helped us to formulate the procedures for the New START 
Treaty, and I think that has really contributed to the 
smoothness of implementation so far. The procedures are well 
understood on both sides, and we have a cadre of professionals 
who are well schooled in those procedures from their past 
experience.
    And also I would say that their language capability is very 
good. At our Nuclear Risk Reduction Center, we have a staff 
working 
24/7 with Russian language capability. These notifications, I 
mentioned 2,500, 2,500 notifications have come in since the 
beginning of the New START Treaty's implementation, and these 
are translated immediately when they come across our transom 
from the Russian Federation.
    So it is really a very solid group of professionals on both 
sides, I would say. And I think that has contributed to a very 
solid and very positive working environment, as well as getting 
the job done.
    We really truly have been able to, I think, develop a very 
good understanding of some systems on the Russian side, which 
we hadn't gotten a good look at before, including primarily the 
RS-24 new mobile ICBM. We would not have had the depth of 
knowledge on that system that we have today if it were not for 
the entry into force of the New START Treaty.
    Thank you, sir.
    Senator Lugar. In other words, you have people who, for 15 
years, have been doing this job. They have a Russian speaking 
capability, and they got 2,500 notifications of material. So 
when they have these spot inspections, they know what they are 
looking for. They are able to fathom immediately any changes or 
anything of significance in terms of our defense.
    Ms. Gottemoeller. Yes, sir. That is very much the case. It 
is a combination of inspections and also then declarations they 
make as they come in to the point of entry, either in Moscow or 
Ulan-Ude. They notify the Russians about where they want to go 
for the inspections. So it is a short-notice inspection. The 
Russians don't know in advance.
    And then, when they get to the actual inspection base, that 
is the point at which we designate a randomly selected missile, 
for example, for a reentry vehicle onsite inspection. It is 
only at the moment that we get to the base that the Russians 
know which missile we are selecting.
    So we have a great deal of information from a spectrum of 
information sources that allow us to then make selections and 
move through the inspection process. But all of these 
procedures are very well designated in the inspection protocol 
of the New START Treaty, and they have proven themselves out in 
the first year and a half of treaty implementation.
    Senator Lugar. Secretary Creedon, in your opinion, was the 
executive branch fully prepared to carry out the new 
requirements negotiated between Moscow and Washington once the 
New START Treaty was signed and ratified? I have been briefed 
by DTRA, but tell me what training and exercises were conducted 
to ensure we were prepared to be fully compliant with the terms 
of the treaty while protecting our own equities.
    Ms. Creedon. Senator Lugar, as Acting Under Secretary 
Gottemoeller has said, the DTRA team is well seasoned and well 
trained and well experienced. They go through rigorous 
inspections so that they can both host the visiting Russian 
inspection teams, as well as visit the Russian sites and 
conduct the inspections at the Russian sites.
    They also are closely linked up with the broader nuclear 
enterprise so that they fully appreciate and understand the 
U.S. nuclear force structure, nuclear bases, and nuclear 
systems so that they understand exactly what needs to be 
protected and what needs to be displayed in the inspection.
    So we have very high confidence in them and also appreciate 
the fact that with the inspectors who had the experience under 
START, they are able then to also continue training a new 
generation, if you will, of inspectors.
    Senator Lugar. Secretary Gottemoeller and Secretary 
Creedon, let me address this question to both of you. You may 
know that I keep a Nunn-Lugar scorecard in my office that 
continually reminds me of the impressive level of cooperation 
between Russian and American officials that has resulted in the 
elimination of thousands of heavy bombers, ICBMs, ballistic 
missile submarines.
    But as we approach discussions with the Russians on the 
extension of the Nunn-Lugar umbrella agreement next year, can 
you both assure me that strategic offensive arms elimination 
will continue to be a priority for the Obama administration?
    Ms. Gottemoeller. I can assure you from the perspective of 
the Department of State, sir, that this will, in fact, be a 
strong continuing interest of the United States. I would also--
you asked about the process and the diplomacy. We have been 
preparing the way with the Russians already for the diplomacy 
that will be required to extend the CTR umbrella agreement.
    So that process is already well under way, both at higher 
levels--I have been in contact with counterparts in the Russian 
Federation--and also at working level. So it is well in train 
at this point.
    Senator Lugar. Secretary Creedon.
    Ms. Creedon. Yes, sir. Again, to reiterate what Under 
Secretary Gottemoeller has said, there have been some good 
initial discussions and also some good initial responses back 
from the Russians about the continuation of the umbrella 
agreement. It is extraordinarily important that we get this 
resolved fairly early so we don't have any possibility that 
there might be any sort of a break in the implementation of the 
CTR program.
    Senator Lugar. I have appreciated monthly reports from the
 Department of Defense for almost 20 years of how many warheads 
were taken off that month, how many missiles destroyed, how 
many silos destroyed. Now that information is in our conference 
room, available to Russian visitors as well as to Americans. So 
I appreciate this reassurance.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Corker.
    Senator Corker. Mr. Chairman, Senator Isakson was here 
first, and I know last time had difficulty getting to him. If 
it is OK with you, I will defer to him first.
    The Chairman. Thank you very much.
    Senator Isakson.
    Senator Isakson. Well, thank you, Senator Corker, and thank 
you for initiating the letter we both signed to Senator Kerry 
requesting this hearing today. I appreciate your leadership and 
appreciate Senator Lugar and Senator Kerry calling this 
meeting.
    I appreciate our witnesses from whom I relied heavily on in 
my deliberations on the START Treaty 2 years ago. You know, 
they always criticize us for not reading the bills. I read 
every blooming page of that thing a couple of times, and Ms. 
Gottemoeller knows because I had to get her to continue to make 
definitions for me that I didn't understand otherwise.
    So I appreciate very much your input, and I am going to 
make a statement more than a question, which I would like all 
three of you to respond to. And I really appreciate the 
information on the inspections because the heart of this 
agreement was to trust and verify what the Russian Federation 
had in terms of nuclear power and if they were complying. And 
that, of course, is why I think the Russian Federation also 
wanted the treaty as well.
    Now, Senator Corker, myself and others supported this 
legislation based principally on a final statement from the 
President with regard to modernization of our nuclear arsenal 
in the United States of America. I don't want to one day wake 
up and find out the Russians were doing inspections under the 
START Treaty in America and found out we were not modernized 
and competitive anymore.
    And I have had some concern on the administration's 
commitment to modernization. I appreciate Mr. D'Agostino's 
statement that he thought the President's commitment was 
evident, but I want to point out a couple of things.
    The June 5 letter to Chairman Kerry from Leon Panetta and 
Steven Chu was a general letter with a lack of specificity on 
meeting the funding demands. Condition 13, with regard to 
construction reports and in terms of construction facilities, 
the President's response in a letter was, and I want to read 
the phrase correctly, ``to the extent possible.''
    And I made this speech on the floor and never got a 
response from the administration. So, hopefully, this question 
will get a response because I would like to see it, Mr. 
Chairman.
    I really need to understand the President's remarks to 
Dmitry Medvedev a few months ago when he said, thinking the mic 
was off, ``let us get this election behind us and I will be 
more flexible.'' I understood that statement to be in reference 
to missile defense but I don't totally know.
    But we cannot afford to be in the business we are in, on 
this committee or as a country, and be counting on one 
representation for meeting commitments while, on the other 
hand, we are seeing a wink and a nod to the other side. So I 
want you to reaffirm to me your commitment, to the extent 
possible, to carry out your mission, but understanding that it 
is important that we receive from the administration a thorough 
commitment that they are committed to continuing on the paths 
they set us out on 2 years ago.
    Now I understand sequestration is a problem. I understand 
we have limited resources. We are all dealing with that. But we 
have made a treaty not just with the Russian Federation, but 
with the American people and about which is our No. 1 
responsibility, which is the safety and the domestic 
tranquility of the United States. And our nuclear defense is a 
critical part of that.
    So I would like for you too, if you would, address that 
statement. And I realize it is a statement, and I may be 
putting you on--and I am not being critical of you. But I want 
to hear from the administration's highest levels that that 
commitment is there, and when we do have challenges, we will 
meet the letter of the law and the letter of the agreements 
that were made prior to the ratification of the START Treaty.
    Mr. D'Agostino. We will start at this end. We will work our 
way down the table, sir, if that is fine?
    Senator Isakson. You are the lucky one.
    Mr. D'Agostino. I would like to, first of all, say my 
background. I have been blessed to be able to serve the country 
in these types of positions for the last 7 years, either in an 
acting or confirmed status. So I have had an opportunity to 
observe this and participate actively in this, and I have seen 
an unprecedented level of commitment on the part of the 
executive branch toward taking care of our nuclear security 
enterprise.
    It is absolutely unprecedented. We are working on over 80 
percent of the stockpile in a very active way, in a way we have 
never done before, frankly. So the work, the actual work that 
is going on in taking care of the stockpile is tremendous.
    The commitment to themselves and our infrastructure 
projects, moving forward on the Uranium Processing Facility, 
the High Explosives Pressing Facility, and a number of other 
infrastructure projects, is significant and there. You heard 
the number I mentioned earlier with respect to increases over 
if the FY13 appropriation and authorization process makes its 
way through, close to a 20-percent increase in essentially just 
a little over 2 years, an unprecedented increase as well.
    So I have to balance--this isn't, of course, just about 
dollars. It is about spending the dollars wisely and doing it 
in a way that we can ensure that the taxpayers are getting what 
they need and we continue to support the stockpile and get that 
done.
    But even just on the numbers basis alone, it is very 
significant and demonstrates, in my view, a real commitment. 
What we have done as a result of the past few years is energize 
our laboratory workforce in stimulating and developing the 
people that are actually going to be working on today's 
stockpile, but will also be there 10 years out into the future 
to take care of the stockpile and the deterrent so that we can 
ensure we can maintain it safe, secure, and effective.
    We focus a lot on buildings and construction because these 
are tangible things. But in my experience in this program, and 
it is close to 20 years in the nuclear weapons program, the key 
here is making sure that the people get exercised as well. And 
that is what we have with this budget request.
    We are looking forward into the out-years because this is 
the open question is how are we going to make sure that we can 
continue these investments in these facilities out in the out-
years? And with Madelyn Creedon's team and with the rest of the 
teams in the Defense Department, we are going to be finishing 
up the study in the next few months, and we want to make sure 
that that information gets up to Congress as part of the 
transparency that was talked about earlier.
    I would like to pass it on.
    Ms. Gottemoeller. Thank you, Senator Isakson, for your 
comments, for your remarks, and also I would like to underscore 
how appreciative I was, but also pressed by your questions. 
Because you really did want to dive down deep into the details 
of the inspection regime and the implementation details of the 
treaty, and I appreciated the opportunity to brief you and at 
least try to answer your many very serious and important 
questions.
    I thought I would make two remarks. I would like to take up 
the open mike question that you raised concerning the comments 
between Medvedev, President Medvedev and President Obama at the 
Seoul nuclear summit. But I would like to begin by underscoring 
a clear statement that was made first in the context of the 
Nuclear Posture Review, but since has been repeated by our 
President and also by my boss, Senator Hillary--I am sorry, was 
Senator Hillary Clinton, now Secretary Hillary Clinton.
    And that is that the administration absolutely remains 
committed to a safe, secure, and effective arsenal for as long 
as nuclear weapons exist. And we do believe that the budget 
requests that we have been making over these last years have 
really supported that commitment overall, and we will continue 
to work very seriously and directly with everyone here on 
Capitol Hill in order to ensure that those commitments are met.
    So I wanted to underscore that commitment for you with its 
links back to the main policy statement of this administration 
on nuclear matters, that is, the Nuclear Posture Review.
    Second, on the open mike statement, the President was 
really stating the obvious, I think, sir. He was stating that 
during this 2012 election year, it is an election year both in 
the Russian Federation and in the United States of America. It 
is not going to be a year for breakthroughs.
    And so, he was saying that this will be a year where we get 
the technical experts together. We will have some opportunities 
to discuss what cooperation may be possible. He and now 
President Putin got together at Los Cabos in Mexico just this 
week and discussed this matter and agreed that, first of all, 
we are committed to looking for ways to cooperate with the 
Russians on missile defense.
    We think that this is in our interests, and it is in the 
interests of our allies and partners in Europe, as well as the 
Russian Federation. So we will look for opportunities to 
cooperate, but we have, I would say, also a very, very clear 
message--clear and unequivocal--and that is in pursuing this 
cooperation, we will not in any way allow Russia to have a veto 
on United States or NATO missile defense plans.
    And I think that is very clear. It is a message that the 
President imparted to his Russian counterpart again this week. 
So I would just like to say that we look upon 2012 as a work 
year. We are going to try to do everything we can to develop 
some pragmatic directions for missile defense cooperation, at 
the same time bearing in mind that Russia will not have a veto 
over anything we are doing with our NATO allies or in our own 
context to develop missile defenses.
    Thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. What? Oh, did you--I don't want to cut you 
off an answer, but I think it has been answered is my sense.
    Senator Isakson. I am satisfied with the answer. Thank you, 
Mr. Chairman.
    The Chairman. Thank you very much, Senator. Appreciate it.
    Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    And I am sorry that I missed the testimony from all of our 
panelists. I know that there has been--I just heard a little 
bit of Senator Isakson's questions about whether or not we are 
actually funding modernization in the way that we should, and I 
do think it is important to point out, as I am sure you already 
have, that there was a requested 5-percent increase. And in 
this fiscal environment, while it is not what I think some 
people would have liked, it is, I think, a difficult decision 
in the fiscal environment that we are in to provide additional 
funding.
    But the real question I think is whether we have the 
funding that we need to maintain the health of the nuclear 
stockpile, and I wonder if you could just answer whether you 
think, in your opinion, the budget that was presented will 
allow us to do that--to maintain the health of the stockpile. 
And I don't know if one of you wants to answer that or if all 
three of you would like to?
    Mr. D'Agostino. Senator Shaheen, I will start the answer. 
The answer is ``Yes,'' we absolutely do have the resources we 
need if the FY13 request is authorized and appropriated as 
requested.
    It is very important, you did note the 5-percent increase 
in the weapons activities account. What isn't really always 
talked about, frankly, is within that weapons activities 
account, the part that actually supports the stockpile is 
actually going up by $420 million, or 7.2 percent.
    So that is a very significant increase, and it is an 
increase for good reason because it is working aggressively on 
about 80 percent--life extension work on 80 percent of the 
stockpile. So, yes, I am quite comfortable with the request.
    Maybe one of my colleagues might care to add?
    Ms. Creedon. Thank you, Senator.
    I just want to add on behalf of the Defense Department and 
the work of the Nuclear Weapons Council, which is the joint 
DOE, NNSA, Department of Defense group that makes sure and 
oversees the entire nuclear enterprise, and on that score, the 
Department of Defense and Department of Energy are working very 
closely to make sure that the ongoing modernization work and 
life extension work of the NNSA continues to meet the 
requirements of the Department.
    And we are, in fact, meeting the requirements under the 
auspices of the Weapons Council.
    Senator Shaheen. Good. Thank you.
    I know that we have heard a lot about how New START has 
benefited us, but I wonder if we could examine a little bit the 
implications of where we would be if we had not passed New 
START.
    So, first, in March 2011, the Russian Federation conducted 
an exhibition for United States officials of the new RS-24 ICBM 
mobile missile, first time Americans had a chance to see that 
up close and personal. And I wonder if we think this exhibition 
would have been possible without New START in place?
    Ms. Gottemoeller.
    Ms. Gottemoeller. No, sir. No, ma'am. I'm sorry. It would 
not have been possible without the New START Treaty.
    Senator Shaheen. And would we have the insight that we do 
into Russia's strategic forces without New START, and why is 
that important to have that information and those insights?
    Ms. Gottemoeller. First of all, we do have our own national 
technical means, intelligence means. We are constantly 
monitoring the Russian strategic forces. This is a very 
important aspect of our national security.
    Of course, it helps us to understand what exactly our 
Strategic Command needs to plan for in terms of ensuring that 
our national security is really guaranteed through our own 
nuclear deterrence forces and their operational planning and 
targeting capabilities. So it is very important from the 
perspective of our national security to understand everything 
we can.
    So we do have some tools available to us, but it is through 
the mechanism of onsite inspection of strategic arms reduction 
treaties that we are actually able to get our inspectors in on 
the ground and have an opportunity to really look, as you put 
it, up close and personal at the Russian strategic nuclear 
weapons systems, whether it is their submarine launch systems, 
their ICBMs, both mobile and fixed ICBMs, or their bomber 
forces.
    So it is really the best way that we can get eyes on and 
really have that kind of confidence in what is going on. And 
that is the whole point of the treaty and has been the point of 
this effort since we started strategic arms limitation back in 
the 1970s. The point is to have enhanced predictability and 
enhanced knowledge and transparency between the two sides so 
that we do not get into the kinds of crises that dogged us 
during the worst days of the cold war.
    Particularly, the signal example is the Cuban missile 
crisis. And that shock to our two capitals, Washington and 
Moscow, I think led us down the road of looking for ways to 
enhance predictability and mutual confidence between--we are 
the two biggest nuclear countries in the world. So to enhance 
confidence and have that kind of stability and transparency is 
really to the benefit of our national security and 
international security as well.
    Senator Shaheen. Thank you.
    Ms. Creedon, the former commander of STRATCOM, General 
Chilton, testified during the treaty consideration that 
``without New START, we would rapidly lose insight into 
Russia's nuclear force and would be left to use worst-case 
analyses.''
    I assume that without the insight and without the stability 
and certainty of the treaty, you would agree with General 
Chilton that the Department of Defense would have a much more 
difficult and costly time planning our strategic weapons 
programs and policies?
    Ms. Creedon. Yes, ma'am. That is absolutely true. And in 
these times of constrained budget environments, I think it is 
even more true and more important.
    Senator Shaheen. Thank you.
    And Mr. D'Agostino, I believe you have testified in a 
similar fashion that New START has allowed you to better plan 
and use your agency resources more effectively. So is it safe 
to say that that stability and confidence that is provided by 
New START really allows you to better plan for modernization of 
our nuclear complex?
    Mr. D'Agostino. Yes, ma'am. It absolutely does that because 
these investments are investments over long periods of time. 
Having that stability allows us to be efficient in our planning 
process and execution.
    Thank you.
    Senator Shaheen. Thank you.
    And Ms. Creedon, as I mentioned, the entire military 
establishment unanimously supported the ratification of New 
START. Is it safe to say that today's leadership continues to 
strongly support the treaty?
    Ms. Creedon. Yes, ma'am. Absolutely, all the way from the 
Secretary to the Chairman to the Vice Chairman to all the 
senior leadership of the Department and all the senior military 
leaders.
    Senator Shaheen. And I assume they would be opposed to 
curtailing the implementation of the treaty?
    Ms. Creedon. Absolutely.
    Senator Shaheen. Thank you.
    Ms. Gottemoeller, one of the real positive aspects of the 
treaty, it seems to me, has been the bipartisan support that it 
has enjoyed really from the first passage of the START Treaty 
back in as early as 1992, when that was originally passed. As 
we went back and looked up the votes for each of the treaties 
before this hearing, and they were 93 to 6, 87 to 4, and 96 for 
the START II and 95 to 0 for the SORT Treaty in 2003.
    Can you just talk about why you think that is important as 
we move forward on implementation of this New START Treaty?
    Ms. Gottemoeller. Yes, ma'am. It has been the case that 
there has been a strong consensus across our political spectrum 
really since the days when President Nixon first began these 
negotiations. I mentioned strategic arms limitation back in the 
early 1970s.
    President Reagan, of course, was the very strong impetus 
behind negotiation of both the Intermediate Range Nuclear 
Forces Treaty and the START Treaty in the 1980s. And so, I 
think I can say that it has been an executive branch matter of 
really working on both sides of the aisle because, again, of 
the importance to national security of having the 
predictability and mutual confidence of these kinds of 
treaties.
    They are hard slogging, as we all know, and I do appreciate 
the way Senators on both sides of the aisle during the 
difficult START ratification debate were really concerned and 
interested to have their questions answered thoroughly. And we 
were very glad to see that seriousness of purpose and to engage 
because I think this is a very serious matter.
    But traditionally, it has been a matter that has enjoyed 
the strong support of both Presidents and Senators on both 
sides of the aisle.
    Senator Shaheen. Thank you.
    I am sorry, Mr. Chairman, for using more than my time was 
allotted.
    The Chairman. Appreciate it. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. Thanks for having 
the hearing. I appreciate it very much and appreciate you 
following up on that.
    And certainly, Ranking Member Lugar's comments on the front 
end, I appreciate those very much. And again, to second what 
others have said, years and years of leadership on this kind of 
issue, and I think all of us thank you for that and hope, as 
was mentioned, that that will continue.
    But thank you very much.
    To the witnesses, I enjoyed very much working with 
Secretary Gottemoeller during the process. I didn't really 
spend much time with you, Ms. Creedon, but thank you for being 
here today.
    And I know that my questions are really outside both of 
your areas, more to D'Agostino. For what it is worth, I have 
been highly disappointed in the followthrough on modernization. 
Highly disappointed.
    And it disappoints me, actually, Administrator D'Agostino, 
to hear you talk about the unprecedented increase when you know 
that you are still not living up to the commitments that have 
been made. And I know that in many ways, you are a foot soldier 
in this and other people are making decisions, and you are 
having to put on a good face. Maybe you like putting on a good 
face. I don't know.
    But I am very disappointed in the followthrough.
    The fact is the administration has not lived up to what was 
agreed to. I don't know how in the world you could know what 
you are saying to Senator Shaheen when the 1251 isn't even out 
yet that is due in July.
    So I have to tell you I am losing faith in your ability to 
carry out what was agreed to in this. And I know that, again, 
other people are involved in many of the decisions that are 
taking place.
    And actually, what I see happening, I see the President out 
now announcing further reductions. It seems like things are 
being slow-walked. And I almost wonder as the President is 
announcing further reductions, the reason that much of the 
modernization is being slow-walked is that there is no 
intention to follow through, and they actually hope to come up 
with more reduction so that much of the modernization that we 
are talking about does not have to take place.
    And I will let you answer that first big question, and then 
I want to get into some others. But I don't know how anybody 
could be happy with the followthrough on modernization as has 
been put in place. It has been like the Keystone Kops, for what 
it is worth, in Congress.
    There has been no support from the administration 
whatsoever in trying to cause these appropriations to be 
coordinated and seen through. None whatsoever. It is almost 
everybody is pointing fingers in multiple directions, and that 
has been highly frustrating.
    And I think Senator Lugar said it best. It is going to take 
leadership from the administration to make this happen.
    It has not been there, and yet I would like for you to 
respond to my first question, and I will ask you more.
    Mr. D'Agostino. Certainly, Senator. Thank you very much.
    I can assure you there is no slow-walking going on. It 
certainly might appear that way, and I don't want to--certainly 
can't speak for your perspective----
    Senator Corker. Well, from my standpoint, can you 
understand why it would appear that way?
    Mr. D'Agostino. Yes, sir. Absolutely. I understand your 
point.
    Senator Corker. OK. But we have not honored the deal that 
was laid out. Is that correct?
    Mr. D'Agostino. There is a very significant investment in 
the
infrastructure----
    Senator Corker. Well, have we honored what was laid out in 
the 12----
    Mr. D'Agostino. Yes, absolutely. The President asked for in 
his fiscal year 2011 budget request very significant 
investments. We were fortunate to receive an anomaly by 
Congress in order to do that. We were still $223 million short 
in that anomaly. Despite that case, we received with the 
President requested full funding for these projects in the 
fiscal year 2012 budget----
    Senator Corker. He did not request it this year, though.
    Mr. D'Agostino [continuing]. $300 million.
    Senator Corker. Did he request it this year?
    Mr. D'Agostino. He did not receive funding from Congress in 
order to do these projects.
    Senator Corker. Last year. What about this year?
    Mr. D'Agostino. This year, our goal is to maintain the 
plutonium capabilities. The key in my view is the right 
investments to maintain capabilities, and that is exactly what 
the President has asked for in his FY13 budget.
    Senator Corker. Let me ask you this. If the President wants 
to reduce the nuclear capabilities of our country, which 
apparently he has just announced he wants to do, it seems to me 
that he would intentionally slow-walk these because he is 
hoping that our nuclear arsenal will be much less than it is 
today.
    I mean, would that not be a rational place for him to be?
    Mr. D'Agostino. Absolutely not. We need these facilities, 
and the President has not canceled the facilities. We need 
these facilities and, more importantly, the capabilities these 
facilities present no matter what, no matter whether the 
arsenal was one warhead or no matter whether the arsenal is the 
current 1,550 operationally deployed warheads that we currently 
have right now under New START.
    So these facilities are absolutely required. The President 
understands that. That is why this particular budget in FY12 
fully requested funds, which we didn't get, in order to do 
that. That is why our fiscal year 2013 budget fully requests 
the funds to work on over 80 percent of the stockpile, make 
investments in high explosive pressing, make investments in 
Uranium Processing Facility, make investments in maintaining 
our plutonium capabilities.
    Senator Corker. Let us talk about plutonium. Before we 
entered into this agreement, the reuse of plutonium pits was 
not acceptable. Now, all of a sudden, it is acceptable.
    I just find that to be fascinating, and there is no plan 
whatsoever. I think we have laid out the need for 50 new 
plutonium pits each year. You have no plan in place whatsoever 
to make that happen, and yet you say that this is moving along 
as it is supposed to move along.
    We talked a little bit about this yesterday, but I am just 
fascinated by this change. And right after the treaty is 
signed, this change in thoughts as it relates to Los Alamos and 
plutonium pits.
    Mr. D'Agostino. Senator Corker, I am not familiar with the 
phrase saying that reuse of plutonium pits is not acceptable. I 
have never said that, and I have been in the program for a 
while.
    Senator Corker. Do we have plans to cause them to be used 
in a proper way? Can you tell me today how we are going to do 
that?
    Mr. D'Agostino. I can tell you in a closed session 
specifics on how we were planning on reusing pits, and I can 
tell you specifically in a closed session on the numbers 
specifically as it relates to taking care of the stockpile.
    The Nation has a very significant number of plutonium pits. 
We have done extensive lifetime studies over the last 20 years 
on plutonium. We have a high degree of confidence in the 
quality of the materials that have been made in the past, and 
we should take advantage of what the Nation has invested in 
over the last longer--frankly, longer than 20 years in making 
pits.
    But that still doesn't mean we don't need to maintain a 
plutonium capability. And in fact, the FY 2013 budget proposes 
to do exactly that. We do need it both authorized and 
appropriated in order to move forward.
    Senator Corker. Secretary Creedon, you know, we gave you 
the ability to transfer $125 million to NNSA. That has not 
happened. Can you tell me why that hasn't happened?
    Ms. Creedon. Senator, as Mr. D'Agostino has said, the FY13 
budget for NNSA, based on FY12 funding levels, is adequate for 
the work in 2013. That said, the Nuclear Weapons Council 
continues to review all the programs of the NNSA and the 
modernization programs at DOD.
    And I would note that right now there are----
    Senator Corker. That was 2012 authority I am talking about, 
and I am talking about FY12 authority to transfer. I don't 
think you all did that.
    Ms. Creedon. Right. No, that is what I am saying.
    Senator Corker. OK.
    Ms. Creedon. The 2012 authority, based on what we are 
looking at from the 2012 program and then looking into the 2013 
program, at the moment, they appear to be on track based on the 
funding that they have received. But we are continuing to look 
at the overall program.
    I think you are aware that we have instituted a joint DOD/
NNSA study to look at how to rebuild this program into the 
future. And the other thing I should point out is that the 
Weapons Council has now approved additional work on life 
extension program. So right now, the NNSA has ongoing life 
extension work, and looking at studying life extension work on 
three different systems and possibly four, which is more than 
they have ever worked on historically in terms of life 
extension programs.
    But if and when we do see a need, then we recognize that we 
have this authority. But at the moment, we haven't identified 
that need yet. That is not to say we won't when the ongoing 
study is completed.
    Senator Corker. Mr. Chairman, again, I thank you for the 
time, and I know I am--probably my temperature is a little 
higher today than normal. But I will just say that this U.S. 
Senator feels very let down by the administration on 
modernization.
    And while you talk about increases, and we have had 
increases. I agree with that, and that was obviously very 
important to me. They have not met what was laid out during the 
modernization agreements and the ratification, candidly, that 
was laid out when the treaty was passed.
    And for what it is worth, this one U.S. Senator would be 
very reticent to agree to any treaty with this administration 
on any topic until something changes as it relates to the 
commitments on this START Treaty. And I know you all are 
talking in a positive way about this.
    This has been the most frustrating process I have been 
involved in in the U.S. Senate is again trying to get the 
various entities coordinated in such a way as we moved ahead, 
as was planned. We had no help whatsoever, none, during the 
appropriations process from the administration.
    And I want to thank the Senator for having this hearing. I 
thank him for the way he candidly handled the process itself. I 
enjoyed very much working with him, but I could not be more 
disappointed in the administration in the followthrough.
    And this has been a learning experience for me. I just want 
everybody to know that, and I hope that everybody will get 
their act together, move ahead, before any other treaties, 
especially of this nature, ever come before the United States 
Senate on this topic.
    Thank you very much.
    The Chairman. Thank you, Senator Corker.
    The vote-a-thon has started, and so we are going to wrap up 
in a moment. But I want to address what Senator Corker has 
said, and I also want to ask a couple of questions before we 
wrap up. And I would like Senator Corker to be here to be part 
of this. I want to see if we can get this on track here.
    I want to associate myself with the remarks of Senator 
Isakson and--to some degree, I don't agree with Senator Corker 
that--
I think when the House of Representatives cuts the budget, it 
is not the fault of the administration. But I think we have to 
figure out why Senator Corker feels that there is not an 
adequate pressure here on the funding component of this because 
I want to say, in association with the comments of Senator 
Isakson, we worked hard together to build a consensus to pass 
the treaty.
    And our word is as involved in this as your word, and I 
think it is critical that we follow through. Now, obviously, we 
can't have a weapon structure that is not sufficiently 
modernized that people make a judgment that the deterrent is 
there and working. But, I mean, there is a complicated overall 
picture here because the general trend line, if you look at 
General Cartwright's comments recently and others, is a belief 
that we can have an adequate deterrent and make the world safer 
and save a significant amount of money with still further 
reductions in the amount of nuclear weapons that are out there 
actively.
    I believe that. I think we are still stuck at a much higher 
number than is necessary in today's world.
    Not everybody, obviously, is convinced of that, and we have 
some people who don't like any reductions. So this is a fight 
that is going to go on for some period of time. It is critical 
to build confidence at every level in order to be able to 
approach this fight correctly.
    So can you sort of address, I mean, I want you to speak to 
this sense that Senator Corker has that somehow the funding 
wasn't what it was supposed to be. Secretary D'Agostino, do you 
want to speak to that?
    Mr. D'Agostino. Absolutely. I think when we plan our 
programs, we look not just at 1 year because, as was mentioned 
earlier, these are multiyear programs. Investments to build a 
multibillion dollar facility require typically 8 to 12 years 
worth of commitment, which is important to have.
    We also take advantage of new things that happen as a 
result, and things have changed in the last year. Not relating 
to the specifics associated externally, as was discussed, but 
mostly in my program, we realized that the existing investments 
in the new Chemistry and Metallurgy Research building, the 
radiation building, allowed us to do a lot more plutonium work 
in there than we had previously expected.
    This is a result of new analysis, technical analysis. So 
instead of operating with about 6 to 8 grams of plutonium in 
this facility, we can now go up to close to 40 grams of 
plutonium. That increases the workload that the laboratory Los 
Alamos and Livermore can do in an existing brand-new facility, 
which we just opened up this week, which is a result of support 
from Congress and the previous administrations and this 
administration.
    So we have learned in the last year not just that we have 
had challenges fiscally, which, of course, we recognize that. 
And of course, we learned that we didn't get the FY12 
appropriation like we asked, but we've learned also that we can 
do a lot more work in the existing facilities. And that takes 
the risk away from the plutonium capability question that this 
is a go/no-go decision.
    The Chairman. Well, let me sort of cut to the quick of it 
because we are not going to have time. Unfortunately, we are in 
the second part of the vote.
    But one of the things the Navy did for me before I went off 
to Vietnam was to send me to chemical/nuclear/biological 
warfare school, and I learned a fair amount about all of this. 
And I followed it, I think, pretty diligently since I came to 
the Senate in 1985, and we debated the MX missile and Europe 
and tactical nuclear and a whole bunch of things here.
    But when you measure concepts of deterrence and choices in 
terms of war and peace and weapons you might use and not use, 
one has to stop and think pretty clearly about whether you 
think you would declare war on China or going into a nuclear 
exchange with China, who have a mere fraction of the weapons 
that we have. And most rational people would decide they don't 
want 1 or 2 or 3 of them fired, let alone 10 or 20, let alone 
100.
    So apart from the ideology and sort of some of the things 
that have driven this race for, you know, the entire last half 
of the last century and the first 12 years of this one, we need 
to think carefully about what is the appropriate level. And I 
think this is going to be forced on us in the context of our 
budgets over these next years anyway.
    But I ask you this big question in a sense. In the first 
year-plus of the treaty's operation, is the Russian Federation 
acting in, or has it acted in, a manner that is inconsistent 
with the object and purpose of the treaty? Just yes or no, very 
quick.
    Ms. Gottemoeller. No, sir. They have been acting in the 
spirit of the treaty.
    The Chairman. And is there any way that they have acted 
that would threaten the national security interests of the 
United States?
    Ms. Gottemoeller. No, sir. In the context of this treaty, I 
think they have been implementing their obligations, and 
certainly, it is, in my view and the view of others in the 
administration, enhancing the national security of the United 
States.
    The Chairman. And all of you, each of you, has Russia 
attempted to move beyond the treaty's limits in any militarily 
significant way or any way that we can measure?
    Ms. Gottemoeller. No.
    The Chairman. Secretary D'Agostino.
    Mr. D'Agostino. No, sir.
    The Chairman. Secretary Creedon.
    Ms. Creedon. No, sir.
    The Chairman. And with the current level of expenditure 
that we are putting into modernization, can you say with 
certainty to the United States Senate and the country that our 
weapons are fully functional, protected, and on a track to 
remain so in the foreseeable future?
    Mr. D'Agostino. Yes, sir. Absolutely. Our weapons and our 
stockpile are safe, secure, and effective, and they are 
reliable. Very confident of that.
    The Chairman. Secretary Gottemoeller.
    Ms. Gottemoeller. Yes, sir. And I would underscore once 
again that the President has said as we pursue further 
reductions in nuclear weapons, we must sustain a stockpile that 
is safe, secure, and effective.
    So Mr. D'Agostino's earlier comment that whether we have 
hundreds, thousands, or one, we will still have to have a very 
capable, responsive nuclear weapons infrastructure. I think 
that is absolutely the case.
    The Chairman. So you are confident that we are deploying--
and as we come into 2018 and the treaty requires us to have no 
more than 1,550 deployed warheads--are you confident that we 
would be deploying a stockpile that is then safe, secure, and 
reliable?
    Mr. D'Agostino. Yes, sir. With support from Congress and 
authorization/appropriation, this administration will continue 
to provide that out in the future, and I trust future 
administrations will as well.
    The Chairman. Secretary Gottemoeller.
    Ms. Gottemoeller. Yes, sir. I agree with Mr. D'Agostino's 
comment. Working closely in partnership with the Congress to 
ensure the appropriations and authorizations help us to achieve 
that goal.
    The Chairman. Secretary Creedon.
    Ms. Creedon. Yes, sir. And I also want to add that although 
we haven't talked about it much today, the delivery systems 
that are the responsibility of the Department of Defense are 
also undergoing significant modernization programs. And that 
this is very much a team effort between DOD and the NNSA when 
we shape and formulate these programs going forward to ensure 
that we have a safe, secure, and effective deterrent into the 
future.
    The Chairman. Now I understand the House of Representatives 
may want to block the military from deploying the warhead 
number set forth in New START unless NNSA gets every dime of 
the resources planned November 2010.
    I would assume that it doesn't really help your concerns if 
Congress winds up forcing you into a situation where you have 
more deployed warheads than you had anticipated, and you still 
don't get the resources you need.
    That is not going to help, is it?
    Mr. D'Agostino. It would make it very challenging, and it 
would cause us to further have to probably cut different things 
to keep focus just on the stockpile, but then longer term 
investments would be led astray.
    The Chairman. Well, I want to thank you all for being here 
today. Thank you for the work you are doing. I think it is 
vital to our country. I think you have been doing an exemplary 
job. I think you negotiated a tough treaty under difficult 
circumstances.
    And as we go forward here, we need to just stay in touch, 
work together, and I am confident we can get the job done.
    Thank you all very much for being here today. We stand 
adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Acting Under Secretary Rose Gottemoeller to Questions 
                 Submitted by Senator Richard G. Lugar

           STATUS OF THREAT REDUCTION AGREEMENTS WITH RUSSIA

    Within calendar year 2013, there appears to be a possibility that, 
for the first time in decades, the United States will not have in place 
the set of agreements that have governed and implemented U.S. threat 
reduction in that nation. Former President Medvedev signed a decree on 
August 11, 2010, announcing Russia's intention to withdraw from the 
1992 International Science and Technology Center (ISTC) Agreement. Even 
while preparations are underway for a transition of the ISTC from 
Russia to another former Soviet Republic, the Nunn-Lugar Umbrella 
Agreement and the U.S.-Russia HEU Purchase Agreement also expire in 
2013.

    Question. Has President Putin, or any other Russian official, yet 
provided a formal, written notification to the ISTC of a decision to 
withdraw from the ISTC pursuant to Article XV of the agreement 
establishing the ISTC?

    Answer. On August 11, 2010, Russian President Medvedev issued a 
decree announcing adoption of the Government of the Russian 
Federation's proposal to withdraw from the 1992 Agreement Establishing 
the International Science and Technology Center (Agreement). The 
International Science and Technology Center (ISTC) is headquartered in 
Moscow. The decree directed The State Corporation for Atomic Energy 
``Rosatom,'' together with other interested federal agencies, to carry 
out work relating to withdrawal of the Russian Federation from the 
Agreement and 1993 Protocol on the Provisional Application of the 
Agreement (Protocol).
    The decree also directed the Ministry of Foreign Affairs with the 
participation of Rosatom to notify each Party to the Agreement and the 
Protocol through diplomatic channels of the decision, and stated that 
the Agreement and Protocol would be null and void for the Russian 
Federation 6 months after the date of such submission of such written 
notification to the other parties. (The Agreement and Protocol specify 
that a party may withdraw 6 months after notice to the other parties.) 
Such a written notification has not yet been provided.
    On July 13, 2011, the Ministry of Foreign Affairs of the Russian 
Federation sent diplomatic notes to the United States and the other 
parties to the Agreement informing them of its intention to terminate 
the provisional application of the Agreement and to withdraw from the 
Protocol, and to take these actions in accordance with the provisions 
of the Agreement and the Protocol upon completion of the last of the 
Russian projects that are currently being implemented with the 
financial participation of the ISTC by the middle of 2015.

                       UPLOAD UNDER LOWER NUMBERS

    Former Chairman of the Joint Chiefs of Staff Admiral Mullen stated 
in answers to my questions in 2010 that:

          New START . . . provides the United States with the 
        flexibility to deploy, maintain, and modernize its strategic 
        nuclear forces in the manner that best protects U.S. national 
        security interests. The U.S. will retain the ability to 
        ``upload'' a significant number of nuclear warheads as a hedge 
        against any future technical problems with U.S. delivery 
        platforms or warheads, a technical breakthrough by an adversary 
        that threatens to neutralize a U.S. strategic delivery system, 
        or as a result of a fundamental deterioration in the 
        international security environment.

    A recent press article I submit for the record states that an 
``[administration] official floated the possibility of reducing the 
number to about 1,000'' and that ``The United States would also explore 
the possibility for unilaterally abandoning a portion of [its] roughly 
3,000 reserve warheads.''

                            (Story Follows)

        U.S. TO UNVEIL NEW PLANS TO FURTHER REDUCE NUCLEAR ARSENAL--
        WASHINGTON, JUNE 16, KYODO NEWS

        (HTTP://ENGLISH.KYODONEWS.JP/NEWS/2012/06/164247.HTML)

          U.S. President Barack Obama is slated to compile and unveil 
        soon, possibly by the end of this month, plans to further 
        reduce the country's nuclear arsenal, high-level U.S. officials 
        said Friday.
          The U.S. government would seek, through future negotiations 
        with Russia, a substantially larger reduction in operational 
        strategic nuclear weapons from the 1,550 the United States is 
        allowed to maintain under a new START treaty with Moscow.
          The United States would also explore the possibility for 
        unilaterally abandoning a portion of the roughly 3,000 reserve 
        warheads not yet deployed, the officials said.
          While the Obama administration is making final adjustments 
        over the size of the reduction target for operational strategic 
        nuclear weapons, one official floated the possibility of 
        reducing the number to about 1,000. Nuclear experts close to 
        the Obama administration have put the figure at between 1,000 
        and 1,100. The administration's plans to seek additional cuts 
        in nuclear weapons reflects Obama's aspiration to seek a world 
        without nuclear weapons as proclaimed in a speech in Prague, 
        the Czech Republic, in April 2009.
          But the administration plans to make no unilateral cuts in 
        strategic
         nuclear weapons, instead seeking reassurances from Moscow 
        through a new treaty or a political agreement that Russia would 
        make similar reductions, the officials said. Russia, for its 
        part, is warily watching its Cold War adversary over concern 
        that U.S. efforts to build an antiballistic shield in Europe 
        could render Russia's strategic nuclear weapons ineffective, 
        showing no sign that it would be willing to respond to a U.S. 
        offer. Obama's new operational guidelines for nuclear weapons 
        would be the culmination of work launched after his 
        administration concluded the so-called Nuclear Posture Review 
        in 2010.
          The Obama administration has argued that one of the principal 
        roles
         nuclear weapons play in U.S. policy is to provide a so-called 
        ``nuclear umbrella'' to such U.S. allies as Japan and South 
        Korea. The administration concluded in its latest review that 
        the United States can maintain an effective nuclear deterrent 
        even if it maintains fewer than the 1,550 strategic nuclear 
        weapons stipulated under the New Strategic Arms Reduction 
        Treaty with Russia, according to the officials. The option of 
        reducing them to the 300 level was discussed but eventually 
        dismissed as insufficient to maintain a credible deterrent, the 
        officials said. The United States currently has about 5,000 
        nuclear weapons in its stockpile, of which just below 2,000 are 
        operational strategic nuclear weapons, 200 are shorter-range 
        operational tactical weapons, and about 3,000 reserve nuclear 
        warheads. Separately, it has about 3,000 warheads waiting to be 
        dismantled.

    Question. Do either of you believe that the ability of the United 
States to execute effective responses to serious noncompliance with 
Article II of the New START Treaty through uploading its reserve 
warheads would be imperiled by cuts as outlined in the press?

    Answer. The administration intends to pursue further reductions 
(below New START levels) in concert with Russia, and would like these 
reductions to include strategic, nonstrategic, and nondeployed nuclear 
weapons.
    As stated in the 2010 Nuclear Posture Review (NPR), the U.S. goals 
in post-New START bilateral negotiations with Russia will include 
reducing nonstrategic nuclear weapons together with the nondeployed 
nuclear weapons of both sides. The NPR also makes clear that U.S. 
nuclear force reductions will maintain the reliability and 
effectiveness of security assurances to our allies and partners.
   effective verification--timely responses to significant violations
    The standard of effective verification was established during 
consideration of the INF Treaty. Testifying before the Foreign 
Relations Committee on the INF Treaty in 1988, Ambassador Paul Nitze 
provided the definition of ``effective verification.'' He stated: 
``What do we mean by effective verification? We mean that we want to be 
sure that, if the other side moves beyond the limits of the treaty in 
any militarily significant way, we would be able to detect such a 
violation in time to respond effectively and thereby deny the other 
side the benefit of the violation.''
    With regard to the New START Treaty, the committee heard testimony 
in closed session from U.S. intelligence community witnesses and from 
New START negotiators. The committee also reviewed both public and 
classified materials on these issues, including: (a) the National 
Intelligence Estimate (NIE) on U.S. capabilities to monitor Russian 
compliance with the treaty; (b) the State Department's report on the 
verifiability of the treaty, provided pursuant to section 306(a)(1) of 
the Arms Control and Disarmament Act (22 U.S.C. 2577(a)(1)); and, (c) a 
letter from the Secretary of Defense that summarized the Defense 
Department's assessment of the military significance of potential 
Russian cheating or breakout, based on the 2010 New START NIE on 
monitoring the treaty.

    Question. With regard to each of the documents and testimony cited 
above, please stipulate whether a U.S. unilateral decision to go well 
below New START Treaty aggregate Article II numbers would affect any 
key judgments contained in any of the relevant documents and testimony 
provided to the Senate in 2010 regarding U.S. upload responses to 
noncompliance.

    Answer. The administration intends to pursue further reductions 
(below New START levels) in concert with Russia, and would like these 
reductions to include strategic, nonstrategic, and nondeployed nuclear 
weapons.
    The verification regime for New START is a detailed and extensive 
set of data exchanges and timely notifications covering all strategic 
offensive arms and facilities covered by the treaty, as well as onsite 
inspections, exhibitions, restrictions on where specified items may be 
located, and additional transparency measures. These verification 
mechanisms enable us to monitor and inspect Russia's strategic nuclear 
forces to ensure compliance with the provisions of the treaty.
          future agreements with russia--negotiating leverage
    In 2010, Secretary Clinton said ``Leverage for future negotiations 
will come from several directions. The Russians are concerned with the 
totality of the U.S. nuclear stockpile, particularly the upload 
capability of our strategic ballistic missiles.''

    Question. Why would the United States consider unilateral cuts or 
constraints on future delivery systems outside of any negotiations if 
such systems provide leverage in future negotiations with Moscow, per 
the Secretary's statement regarding American upload capability?

    Answer. The administration intends to pursue further reductions 
(below New START levels) in concert with Russia, and would like these 
reductions to include strategic, nonstrategic, and nondeployed nuclear 
weapons.

                            UNILATERAL CUTS

    The Resolution of Ratification for the New START Treaty that I 
authored and which was agreed to in this Committee and the Senate 
included a declaration stating: ``The Senate declares that further arms 
reduction agreements obligating the United States to reduce or limit 
the Armed Forces or armaments of the United States in any militarily 
significant manner may be made only pursuant to the treaty-making power 
of the President as set forth in Article II, section 2, clause 2 of the 
Constitution of the United States.''

    Question. Is this administration considering any unilateral 
reductions in any categories of U.S. nuclear weapons outside of any 
treaty with Russia, or otherwise?

    Answer. The administration intends to pursue further reductions 
(below New START levels) in concert with Russia, and would like these 
reductions to include strategic, nonstrategic, and nondeployed nuclear 
weapons.

    Question. If so, how would such reductions be consistent with 
existing statute (22 U.S.C. 2753(b)) and the Senate's declaration on 
New START?

    Answer. The administration is not considering any arms reductions 
that would be outside the scope of 22 U.S.C. 2753(b) or the Senate's 
declaration on New START.

                              GOING LOWER

    Question. The New START Treaty allowed each side 7 years to reach 
its
 treaty compliant force structure, and to modify it over the life of 
the treaty. Freedom to mix and match systems, and to modernize, are 
guaranteed by the treaty. To date, the administration has not yet been 
clear with regard to how it would structure our forces during the next 
6 years, prior to the time when the United States must be ``at or 
below'' Article II limits.
    If it was the administration's intention to ``go lower,'' then why 
did it not simply extend the START I Treaty, and negotiate a treaty 
covering deployed, nondeployed and nonstrategic systems as the follow-
on to START I?

    Answer. In March 2006, the Russian Federation advised the United 
States that it was not inclined to extend the START Treaty in its 
current form. In October 2006, the United States concurred that the 
START Treaty should not be extended, though some provisions of that 
treaty might be carried forward.
    Thus, a simple extension of the START Treaty was not a viable 
option, and the administration adopted the goal of concluding a new 
treaty to replace the START Treaty.

             ENRICHMENT AND REPROCESSING IN 123 AGREEMENTS

    Earlier this year, the administration adopted a ``case-by-case'' 
policy with respect to application of a standard such as may be found 
in the Agreed Minute to the 2009 123 Agreement with the United Arab 
Emirates regarding enrichment and reprocessing (ENR). Administration 
policy is to submit 123 agreements with new countries that do not 
contain ENR commitments, such as the agreement with Vietnam or Jordan.

    Question. Is it true that under the revised Guidelines regarding 
ENR transfers adopted by the Nuclear Suppliers Group (NSG) that neither 
Jordan nor Vietnam would qualify for transfers of enrichment 
technology?

    Answer. Under the existing Nuclear Suppliers Group Guidelines, we 
consider it highly unlikely that any supplier would transfer enrichment 
technology to either Jordan or Vietnam regardless of whether they meet 
the criteria. Neither country in the foreseeable future is expected to 
develop a nuclear power program of sufficient magnitude to justify the 
establishment of a domestic uranium enrichment capability. 
Additionally, Vietnam does not have an Additional Protocol in force, 
and Jordan is not a Party to the Convention on the Safety of Spent Fuel 
Management and the Safety of Radioactive Waste Management. Having an 
Additional Protocol and adherence to relevant nuclear safety 
conventions (not further defined) are two of the relevant criteria to 
qualify for transfers.

    Question. If so, then why is the administration apparently no 
longer seeking ENR commitments from Jordan or Vietnam?

    Answer. The administration is currently conducting 123 agreement 
negotiations with both Jordan and Vietnam. While we are not able to 
comment publicly on the details of those ongoing negotiations, we are 
discussing assurances on ENR with both countries.

    Question. Will either the Jordan or Vietnam 123 agreements be 
submitted to Congress this year?

    Answer. While it is still a possibility, I do not think it likely 
that the President will submit any proposed 123 agreements to the 
Congress in 2012.

    Question. You are currently serving as Acting Under Secretary of 
State for Arms Control and International Security, but you have not 
been nominated to that position by the President. The Vacancies Reform 
Act establishes limits on the amount of time an official may serve on 
an acting basis in a position requiring the advice and consent of the 
Senate. You have also been permitted to continue serving in the 
Assistant Secretary position to which you were confirmed in 2009.

  <bullet> On what date did you begin serving as Acting Under Secretary 
        of State for Arms Control and International Security (U/S T)?

    Answer. I began serving as the Acting Under Secretary for Arms 
Control and International Security (T) on February 7, 2012.

    Question. What is the Department of State's understanding as to how 
much longer you may continue to serve as an Acting Under Secretary of 
State if you are not nominated to that position by the President?

    Answer. According to the Vacancies Reform Act, if the President has 
not submitted a nomination, an acting officer may serve in an acting 
capacity for 210 days from the date of the vacancy.

    Question. You have stated that ``I want to stress that I am 
continuing with my responsibilities as U.S. Assistant Secretary for 
Arms Control, Verification, and Compliance [A/S AVC]. But now I'll 
combine my previous functions with the responsibilities of Under 
Secretary for Arms Control and International Security.'' You have also 
stated ``In the simplest terms, AVC is the Arms Control Bureau.'' As 
both an Under Secretary and an Assistant Secretary with negotiating and 
other arms control functions, are you and the Department of State under 
the understanding that you remain the full-time Assistant Secretary 
that fully participates in all interagency groups or organizations 
within the executive branch of the U.S. Government that assesses, 
analyzes, and/or reviews United States planned or ongoing policies, 
programs, or actions that have a direct bearing on verification, or 
compliance and enforcement matters, including interagency intelligence 
committees concerned with the development or exploitation of 
measurement or signals intelligence or other national technical means 
of verification, as Congress intended in Subtitle A of Title XI of 
Public Law 106-113?

    Answer. Yes.

    Question. When Congress created the Assistant Secretary slot in 
which you now serve, and the Verification Bureau, the State Department 
originally countered by offering to create a position within the office 
of U/S T for verification. Please explain how combining your duties as 
both U/S T and A/S AVC will not result in verification issues being 
treated in the manner the Department originally proposed, and Congress 
rejected, in Public Law 106-113?

    Answer. It is the view of the Department of State that, according 
to the Vacancies Reform Act, I am required to continue in my position 
as Assistant Secretary for Arms Control, Verification and Compliance 
(AVC). This Bureau, created by Public Law 106-113 and with 
responsibilities as spelled out in the State Department Foreign Affairs 
Manual, continues to have responsibility for overall supervision of 
arms control, verification, and compliance issues within the Department 
of State. The 144 employees of the AVC Bureau are constantly working to 
ensure that the vital arms control, verification, and compliance 
mission is carried out in support of U.S. national security. This 
includes offices and individuals solely dedicated to developing 
verification approaches and technology, monitoring compliance, 
developing verification and compliance assessments, and a 24/7 watch to 
monitor compliance. The President's designation of me as Acting Under 
Secretary was not intended to, and did not, transfer the AVC Bureau's 
statutory functions of verification and compliance to the Office of the 
Under Secretary.
                                 ______
                                 

   Responses of Assistant Secretary Madelyn R. Creedon to Questions 
                 Submitted by Senator Richard G. Lugar

                   NUNN-LUGAR UMBRELLA AGREEMENT/SOAE

    Nunn-Lugar executes program activities in Russia under both the 
U.S.-Russia CTR Umbrella Agreement and the Agreement Between the 
Department of Defense of the United States of America and the Russian 
Federal Space Agency Concerning Cooperation in the Elimination of 
Strategic Offensive Arms (the SOAE Implementing Agreement).

    Question. On July 2, 2008, the Russian Duma ratified the 2006 
Extension Protocol and the 1999 Extension Protocol to the CTR Umbrella 
Agreement. On what date in 2013 do either of these agreements expire?

    Answer. The current CTR Umbrella Agreement expires on June 17, 
2013. However the U.S. Government is seeking to extend it for 7 years 
beyond that date. Unless it is terminated by either party, the SOAE 
Implementing Agreement, as extended in 2006, remains in effect for the 
duration of the Umbrella Agreement, as amended or extended.

    Question. Should the U.S.-Russia CTR Umbrella Agreement expire, or 
lapse with no successor agreement in place, or Russian ratification of 
a protocol to extend it not occur before expiration, could the 
Department of Defense continue to undertake activities in Russia under 
the SOAE Implementing Agreement?

    Answer. The SOAE Implementing Agreement will expire upon expiration 
of the CTR Umbrella Agreement. To continue undertaking activities, the 
United States would need an extension, or some other successor 
agreement, in place.

    Question. In the last decade, when the protocol to extend the U.S.-
Russia CTR Umbrella Agreement was not submitted to the Duma before the 
expiration of the existing text (though it was eventually ratified), 
how were Department of Defense personnel and U.S. contractors able to 
continue to undertake destruction of strategic weapons delivery systems 
and associated infrastructure in Russia?

    Answer. The Nunn-Lugar program began operating in the Russian 
Federation under an Umbrella Agreement entitled ``The Agreement 
Concerning the Safe and Secure Transportation, Storage and Destruction 
of Weapons and the Prevention of Weapons Proliferation'' (CTR Umbrella 
Agreement) signed on June 17, 1992. The CTR Umbrella Agreement entered 
into force upon signature. In 1999, a Protocol was concluded that 
extended and amended the CTR Umbrella Agreement. The 1999 Protocol was 
provisionally applied from the date of its signature until its entry 
into force in 2008. In 2006 an additional Protocol that further 
extended the CTR Umbrella Agreement was concluded. The 2006 Protocol 
was also provisionally applied from the date of signature until such 
time as it entered into force, which occurred at the same time in 2008 
as entry into force of the 1999 Protocol.

                       SOAE ACTIVITIES IN RUSSIA

    The FY 2013-FY 2017 Implementation Plan for SOAE in Russia calls 
for: (a) continued elimination of SS-25 road-mobile launchers and SS-25 
ICBMs; (b) infrastructure elimination at SS-25 Strategic Rocket Forces 
bases; (c) SS-N-20 SLBM elimination efforts (to have been completed in 
FY 2012); (d) dismantlement and elimination of SS-18 and SS-19 ICBM 
silos and ICBMs; (e) dismantlement and elimination of SS-N-18 SLBMs; 
and (f) elimination and dismantlement of SLBM launchers, the Delta III- 
and Typhoon-class Russian SSBNs.

    Question. Please provide, in classified form if necessary, and with 
regard to (a)-(f), above, a summary of the launchers, ICBMs, SLBMs, and 
associated infrastructure that Russia has indicated will be slated for 
elimination or dismantlement in fiscal years 2013 and 2014 under the 
Nunn-Lugar program.

    Answer. Russia does not formally indicate in advance which missiles 
will be slated for elimination. However, Russia's Federal Space Agency 
(FSA) recently estimated that, in 2013, it plans to request CTR 
assistance in the elimination of nine SS-25 ICBMs and road-mobile 
launchers, and four SS-N-18 SLBMs. FSA representatives stated that 
these plans were estimates for the first half of 2013 but withheld 
plans for the full calendar year until they better understood whether 
the CTR Umbrella Agreement will be extended beyond its current 
expiration of June 2013. Russia's State Atomic Energy Corporation 
``Rosatom'' has also requested CTR support for the dismantlement of 
Delta III, Hull 393 in 2013, and DOD has agreed to support this 
project. Russia has offered no estimate for 2014.

    Question. Please provide, in coordination with the intelligence 
community, a statement as to the utility for treaty monitoring purposes 
of the continuation of SOAE activities in Russia.

    Answer. Information exchanges and verification measures required 
under the New START Treaty (NST), including notifications and 
inspections, provide sufficient transparency to enable the United 
States to verify eliminations of Russian strategic systems. Information 
from SOAE activities often plays a confirmatory role in evaluating NST 
data and sometimes provides limited advance notice of Russian 
elimination activity.

    Question. Is there any circumstance under which the Department of 
Defense would no longer seek to carry out SOAE activities in Russia?

    Answer. DOD constantly assesses the ongoing threat reduction value 
of CTR projects. If the threat reduction value of SOAE in Russia is no 
longer evident, DOD will likely phase out SOAE work.

    Question. If so, why?

    Answer. DOD constantly assesses the ongoing threat reduction value 
of CTR projects. If the threat reduction value of SOAE in Russia is no 
longer evident, DOD will likely phase out SOAE work.

    Question. The administration stated in an answer for the record in 
2010 that in determining whether any newly developed elimination 
procedures under New START are sufficient, the United States will not 
limit itself to a predetermined set of criteria. Please provide a 
description of how U.S. dismantlement of a Russian system governed 
under paragraph (8) of Article III of the New START Treaty, and 
relevant portions of the New START Protocol and Annexes, is done so as 
to ensure that no elimination procedures used by the United States in 
Russia could result in ambiguous situations affecting the viability and 
effectiveness of the New START Treaty.

    Answer. CTR's SOAE program takes the conversion or elimination 
requirements of the New START Treaty and uses them as a baseline from 
which to add any additional elimination processes deemed mutually 
beneficial.
           status of threat reduction agreements with russia
    Within calendar year 2013, there appears to be a possibility that, 
for the first time in decades, the United States will not have in place 
the set of agreements that have governed and implemented U.S. threat 
reduction in that nation. Former President Medvedev signed a decree on 
August 11, 2010, announcing Russia's intention to withdraw from the 
1992 International Science and Technology Center (ISTC) Agreement. Even 
while preparations are underway for a transition of the ISTC from 
Russia to another former Soviet Republic, the Nunn-Lugar Umbrella 
Agreement and the U.S.-Russia HEU Purchase Agreement also expire in 
2013.

    Question. Has President Putin, or any other Russian official, yet 
provided a formal, written notification to the ISTC of a decision to 
withdraw from the ISTC pursuant to Article XV of the agreement 
establishing the ISTC?

    Answer. On August 11, 2010, then-President Medvedev issued a decree 
announcing adoption of the Government of the Russian Federation's 
proposal to withdraw from the 1992 Agreement Establishing the 
International Science and Technology Center (ISTC Agreement). The 
International Science and Technology Center (ISTC) is headquartered in 
Moscow. The decree directed the State Corporation for Atomic Energy 
``Rosatom,'' and other state agencies to carry out work relating to the 
withdrawal of the Russian Federation from the ISTC Agreement and 1993 
Protocol on the Provisional Application of the ISTC Agreement 
(Protocol).
    The decree also directed the Ministry of Foreign Affairs, with the 
participation of Rosatom, to notify each Party to the ISTC Agreement 
and the Protocol through diplomatic channels of the decision, and 
stated that the ISTC Agreement and Protocol would be null and void for 
the Russian Federation 6 months after the date of such submission of 
such written notification to the other Parties. (The ISTC Agreement and 
Protocol specify that a party may withdraw 6 months after notice to the 
other parties.) Such a written notification has not yet been provided.
    On July 13, 2011, the Ministry of Foreign Affairs of the Russian 
Federation sent diplomatic notes to the United States and the other 
Parties to the ISTC Agreement informing them of its intention to 
terminate the provisional application of the ISTC Agreement and to 
withdraw from the Protocol, and to take these actions in accordance 
with the provisions of the ISTC Agreement and the Protocol upon 
completion of the last of the Russian projects that are currently being 
implemented with the financial participation of the ISTC by the middle 
of 2015.

    Question. The Department of Defense is an ISTC partner and manages 
Biological Threat Reduction Program (BTRP) projects in Russia through 
the ISTC because there is no BTRP implementing agreement with Russia. 
If the ISTC is no longer to be located in Russia, how would the 
Department of Defense conduct any BTRP activities in Russia in the 
future?

    Answer. DOD expects to complete ongoing work by the time of 
Russia's planned withdrawal date of 2015. However, DOD is exploring 
other options for continuing BTRP cooperation with Russia.

    Question. Please provide a summary as to the legal status, 
relationships among, the expiration date, necessity for future 
activities under and negotiating status (if relevant, to include 
whether a new text has been provided to the Russian Government) of each 
of the following:

  <bullet> (a). The Agreement Between the United States of America and 
        the Russian Federation Concerning the Safe and Secure 
        Transportation, Storage and Destruction of Weapons and the 
        Prevention of Weapons Proliferation, dated June 17, 1992, as 
        amended February 3, 2005, and as amended and extended June 15/
        16, 1999 and June 16, 2006 (the U.S.-Russia CTR Umbrella 
        Agreement);

    Answer. The U.S.-Russia CTR Umbrella Agreement provides overarching 
terms that enable the cooperative activities that the U.S. Government 
undertakes with the Government of Russia to safely secure and destroy 
weapons of mass destruction and related materials and establish 
additional verifiable measures against proliferation of such weapons. 
The current CTR Umbrella Agreement expires on June 17, 2013. However 
the U.S. Government is seeking to extend it for 7 years beyond that 
date.

  <bullet> (b). The Agreement Between the Department of Defense of the 
        United States of America and the Federal Agency for Industry 
        Concerning the Safe, Secure and Ecologically Sound Destruction 
        of Chemical Weapons, dated July 30, 1992, as amended March 18, 
        1994; May 28, 1996; April 10, 1997; December 29, 1997; January 
        14, 1999; November 14, 2000; August 29, 2002; October 23, 2002; 
        March 17, 2003; March 18, 2003; September 23, 2003; July 28, 
        2004; October 6, 2005; September 8, 2006; and May 21, 2007 
        (Chemical Weapons Destruction Implementing Agreement);

    Answer. Unless it is terminated by either Party, the Chemical 
Weapons Destruction Implementing Agreement remains in force for the 
duration of the Umbrella Agreement, as amended or extended.

  <bullet> (c). The Agreement Establishing an International Science and 
        Technology Center, dated November 27, 1992 (ISTC Agreement);

    Answer. The ISTC Agreement remains in effect, although Russia has 
indicated it will withdraw by mid-2015. Prior to President Medvedev's 
August 11, 2010, decree announcing Russia's intention to withdraw from 
the ISTC Agreement, the United States made a major effort to interest 
Russia in continuing multilateral nonproliferation and other scientific 
cooperation--either in a ``transformed'' ISTC or in a ``new framework'' 
of broadened scientific scope. In the course of discussions with the 
relevant agencies of the Russian Government, it was made clear that 
Russia felt it no longer needed assistance in providing employment for 
its scientists and that there was not sufficient support for continuing 
such cooperation. President Medvedev's decree announcing Russia's 
intention to withdraw has made it almost inevitable that the ISTC 
headquarters in Moscow will close and Russia will leave the 
organization.
    In the wake of the Medvedev decree, the administration has been 
working with the other funding Parties and the ISTC's non-Russian 
former Soviet Union (FSU) member states to preserve the ISTC by moving 
the headquarters elsewhere. The June 27, 2012, Governing Board (GB) 
meeting gave approval in principle to moving the ISTC to Kazakhstan and 
negotiation is beginning for necessary amendments to the existing ISTC 
Agreement to reflect Russia's withdrawal, as well as other amendments 
that might serve to make the organization a more flexible instrument 
for the future. The Department of State is preparing to enter such 
negotiations with the remaining ISTC Parties.
    Preserving the ISTC will both provide a multilateral means to 
continue addressing our ongoing concerns in the region and keep open 
the possibility that Russia might decide to associate itself again with 
the ISTC at some future point.

  <bullet> (d). The Agreement Between the Department of Defense of the 
        United States of America and the Federal Space Agency 
        Concerning Cooperation in the Elimination of Strategic 
        Offensive Arms, dated, August 26, 1993, as amended April 3, 
        1995; June 19, 1995; May 27, 1996; April 11, 1997; February 11, 
        1998; June 9, 1998; August 16, 1999; August 8, 2000; June 9, 
        2003; September 25, 2003; January 14, 2005; May 25, 2006; and 
        April 27, 2007; and as amended and extended August 30, 2002 and 
        September 5, 2006 (SOAE Implementing Agreement);

    Answer. Unless it is terminated by either party, the SOAE 
Implementing Agreement remains in force for the duration of the 
Umbrella Agreement as amended or extended.

  <bullet> (e). The Memorandum of Understanding and Cooperation on 
        Defense and Military Relations Between the Department of 
        Defense of the United States of America and the Ministry of 
        Defense of the Russian Federation, dated September 8, 1993 
        (Defense and Military Contacts MOU);

    Answer. In 2006, a Protocol (2006 Protocol) that further extended 
the CTR Umbrella Agreement was concluded. The 2006 Protocol included an 
annex listing the agreements to which the provisions of the CTR 
Umbrella Agreement apply. This annex excluded the Defense and Military 
Contacts MOU.

  <bullet> (f). The Agreement Between the Government of the United 
        States of America and the Government of the Russian Federation 
        on Science and Technology Cooperation, dated December 16, 1993 
        (Science and Technology Cooperation Russia Implementing 
        Agreement);

    Answer. The U.S.-Russia Science and Technology Agreement 
(Agreement) was extended on December 16, 2005, for a 10-year term; the 
Agreement would expire by its terms on December 15, 2015. At the next 
meeting of the Science and Technology Working Group under the Bilateral 
Presidential Commission, currently scheduled for March 2013, the United 
States will propose to merge the Science and Technology Working Group 
and the Joint Science and Technology Committee Meeting called for under 
the Agreement. The DOD CTR Program currently conducts its science and 
technology cooperation with Russia through the ISTC Agreement and the 
ISTC Funding Memorandum of Agreement.

  <bullet> (g). The Agreement Between the Department of Defense of the 
        United States of America and the Ministry of Defense of the 
        Russian Federation Concerning Cooperation in Nuclear Weapons 
        Storage Security through Provision of Material, Services, and 
        Related Training, dated April 3, 1995, as amended June 21, 
        1995; May 27, 1996; April 8, 1997; January 14, 1999; November 
        1, 1999; June 12, 2000; September 19, 2002; July 12, 2004; May 
        5, 2005; March 22, 2006; February 21, 2007; and November 15, 
        2007 and as extended January 14, 1999; January 25, 2000; and 
        June 17, 2006 (NWSS Implementing Agreement);

    Answer. Unless it is extended, the NWSS Implementing Agreement will 
expire by its terms on June 17, 2013. However, the U.S. Government will 
seek to extend it for 7 years beyond that date along with the Umbrella 
Agreement.

  <bullet> (h). The Agreement Between the Department of Defense of the 
        United States of America and the Ministry of Defense of the 
        Russian Federation Concerning Cooperation in Nuclear Weapons 
        Transportation Security through Provision of Material, 
        Services, and Related Training, dated April 3, 1995, as amended 
        June 21, 1995; May 27, 1996; June 12, 2000; February 28, 2002; 
        September 19, 2002; March 26, 2003; March 5, 2004; July 12, 
        2004; May 23, 2005; August 26, 2005; March 22, 2006; and 
        February 21, 2007; and as extended January 14, 1999; January 
        25, 2000; and June 17, 2006 (NWTS Implementing Agreement);

    Answer. Unless it is extended, the NWTS Implementing Agreement will 
expire by its terms on June 17, 2013. However, the U.S. Government will 
seek to extend it for 7 years beyond that date along with the Umbrella 
Agreement.

  <bullet> (i). The Memorandum of Agreement Between the Government of 
        the United States of America and the International Science and 
        Technology Center Concerning the Contribution of Funds for 
        Approved Projects to Facilitate the Nonproliferation of Weapons 
        and Weapons Expertise, dated April 15, 1996, as amended by 
        annexes May 23, 1997; May 21, 1998; and January 26, 1999; and 
        by amendments to the annex of January 26, 1999; June 29, 1999; 
        and September 18, 2000 (ISTC Funding Memorandum of Agreement).

    Answer. The ISTC Funding Memorandum of Agreement remains in force 
and, unless a Party withdraws from it, it will remain in force for the 
duration of the ISTC Agreement.

                      LIABILITY ISSUES WITH RUSSIA

    The original Nunn-Lugar program operated in the Russian Federation 
from 1992 to 1999 under an umbrella agreement that was negotiated in 
1991 and 1992. That agreement was submitted to the Russian Duma and was 
approved and therefore carried the force of law. The Nunn-Lugar program 
functioned quite well under that for 7 years. In 1999, the umbrella 
agreement expired of its own terms and was signed again by the 
Governments of the United States and the Russian Federation. The 
Russian Federation did not submit the umbrella agreement to the Duma 
for timely ratification even after it was successfully renegotiated 
(though that did eventually happen). It was applied on a de facto basis 
in the intervening period, with Russian and American cooperation.

    Question. What liability protections for threat reduction 
activities exist in Russia outside of our existing agreements with 
Russia (as listed in question 12)?

    Answer. In addition to the liability protections for threat 
reduction activities provided by our existing bilateral agreements with 
Russia, there may be some protection applicable to activities in Russia 
and certain surrounding countries against liability for nuclear damage 
arising from certain threat reduction activities through the Vienna 
Convention on Civil Liability for Nuclear Damage (Vienna Convention) to 
which Russia is a Party. (The Vienna Convention would not provide 
protection against lawsuits in U.S. courts because the United States is 
not a Party to the Vienna Convention.) Under the Vienna Convention, 
liability for nuclear damage arising from a nuclear incident at a 
nuclear installation in Russia would be channeled to the operator of 
the installation. We do not know whether Russia would argue that the 
Vienna Convention does not cover certain nonpeaceful uses and that 
threat reduction activities are a nonpeaceful use not covered by the 
Vienna Convention.

    Question. Does the Russian Government fear that liability might be 
imposed on it in the case of an incident of liability involving Nunn-
Lugar activities and, if so, why have they not developed an adequate 
doctrine to protect Russian interests but instead tried to shift 
liability to the United States?

    Answer. In the past, Russia has not expressed concern regarding its 
responsibility for damage arising out of Russian actions in connection 
with Nunn-Lugar activities. Rather, the issue has been whether Russia 
should assume responsibility for damages, if any, allegedly caused by 
the U.S. Government, its employees, or its contractors in carrying out 
Nunn-Lugar activities.
     The Nunn-Lugar program began operating in the Russian Federation 
under an Umbrella Agreement entitled ``The Agreement Concerning the 
Safe and Secure Transportation, Storage and Destruction of Weapons and 
the Prevention of Weapons Proliferation'' (CTR Umbrella Agreement) 
signed on June 17, 1992. The CTR Umbrella Agreement entered into force 
upon signature. In 1999, a Protocol was concluded that extended and 
amended the CTR Umbrella Agreement. The 1999 Protocol was provisionally 
applied from the date of its signature until its entry into force in 
2008. In 2006 an additional Protocol that further extended the CTR 
Umbrella Agreement was concluded. The 2006 Protocol was also 
provisionally applied from the date of signature until such time as it 
entered into force, which occurred at the same time in 2008 as entry 
into force of the 1999 Protocol.

                        NPR IMPLEMENTATION STUDY

    Both press reports and conversations with various administration 
officials have revealed that the administration decided to delay 
completion the Nuclear Posture Review (NPR) Implementation Study and 
that it could result in changes to Presidential guidance affecting 
employment of the force, and perhaps significant cuts in U.S. nuclear 
forces well below Article II of the New START Treaty.

    Question. What is the status of the Defense Department's 
implementation study for the 2010 NPR?

    Answer. The NPR Implementation study continues. As the review has 
not been formally completed, I cannot comment on specific content. 
However, once the study has been completed, the intent is to brief 
Congress following authorization by the President.

    Question. The administration has refused to share Presidential 
Policy Directive 11 (PPD 11) with the Congress, but has stated that the 
numbers of warheads, missiles, and launchers in the New START Treaty 
reflect extant guidance from the previous administration. Is the 
Department of Defense prepared to share with this committee either the 
PDD from this administration or the guidance from the Bush 
administration well before the time when another treaty with Russia 
might be presented to the Senate?

    Answer. During the New START Treaty ratification hearings, a 
briefing was provided to the SFRC and SASC on November 17, 2010. This 
briefing, titled ``New START Treaty Force Exchange Analysis,'' provided 
an overview of Presidential guidance as well as USSTRATCOM force 
planning. It is our intention to brief you well before presentation of 
any potential new treaty to the Senate.

                       UPLOAD UNDER LOWER NUMBERS

    Question. Former Chairman of the Joint Chiefs of Staff, Admiral 
Mullen,
stated in answers to my questions in 2010 that: ``New START . . . 
provides the United States with the flexibility to deploy, maintain, 
and modernize its strategic nuclear forces in the manner that best 
protects U.S. national security interests. The U.S. will retain the 
ability to `upload' a significant number of nuclear warheads as a hedge 
against any future technical problems with U.S. delivery platforms or 
warheads, a technical breakthrough by an adversary that threatens to 
neutralize a U.S. strategic delivery system, or as a result of a 
fundamental deterioration in the international security environment.''
    A recent press article I submit for the record states that an 
``[administration] official floated the possibility of reducing the 
number to about 1,000'' and that ``The United States would also explore 
the possibility for unilaterally abandoning a portion of [its] roughly 
3,000 reserve warheads.''

                            (Story Follows)

        U.S. TO UNVEIL NEW PLANS TO FURTHER REDUCE NUCLEAR ARSENAL--
        WASHINGTON, JUNE 16, KYODO NEWS

        (HTTP://ENGLISH.KYODONEWS.JP/NEWS/2012/06/164247.HTML)

          U.S. President Barack Obama is slated to compile and unveil 
        soon, possibly by the end of this month, plans to further 
        reduce the country's nuclear arsenal, high-level U.S. officials 
        said Friday.
          The U.S. Government would seek, through future negotiations 
        with Russia, a substantially larger reduction in operational 
        strategic nuclear weapons from the 1,550 the United States is 
        allowed to maintain under a new START treaty with Moscow.
          The United States would also explore the possibility for 
        unilaterally abandoning a portion of the roughly 3,000 reserve 
        warheads not yet deployed, the officials said.
          While the Obama administration is making final adjustments 
        over the size of the reduction target for operational strategic 
        nuclear weapons, one official floated the possibility of 
        reducing the number to about 1,000. Nuclear experts close to 
        the Obama administration have put the figure at between 1,000 
        and 1,100. The administration's plans to seek additional cuts 
        in nuclear weapons reflects Obama's aspiration to seek a world 
        without nuclear weapons as proclaimed in a speech in Prague, 
        the Czech Republic, in April 2009.
          But the administration plans to make no unilateral cuts in 
        strategic 
        nuclear weapons, instead seeking reassurances from Moscow 
        through a new treaty or a political agreement that Russia would 
        make similar reductions, the officials said. Russia, for its 
        part, is warily watching its cold war adversary over concern 
        that U.S. efforts to build an antiballistic shield in Europe 
        could render Russia's strategic nuclear weapons ineffective, 
        showing no sign that it would be willing to respond to a U.S. 
        offer. Obama's new operational guidelines for nuclear weapons 
        would be the culmination of work launched after his 
        administration concluded the so-called Nuclear Posture Review 
        in 2010.
          The Obama administration has argued that one of the principal 
        roles nuclear weapons play in U.S. policy is to provide a so-
        called ``nuclear umbrella'' to such U.S. allies as Japan and 
        South Korea. The administration concluded in its latest review 
        that the United States can maintain an effective nuclear 
        deterrent even if it maintains fewer than the 1,550 strategic 
        nuclear weapons stipulated under the New Strategic Arms 
        Reduction Treaty with Russia, according to the officials. The 
        option of reducing them to the 300 level was discussed but 
        eventually dismissed as insufficient to maintain a credible 
        deterrent, the officials said. The United States currently has 
        about 5,000 nuclear weapons in its stockpile, of which just 
        below 2,000 are operational strategic nuclear weapons, 200 are 
        shorter-range operational tactical weapons, and about 3,000 
        reserve nuclear warheads. Separately, it has about 3,000 
        warheads waiting to be dismantled.

  <bullet> Do either of you believe that the ability of the United 
        States to execute effective responses to serious noncompliance 
        with Article II of the New START Treaty through uploading its 
        reserve warheads would be imperiled by cuts as outlined in the 
        press?

    Answer. Our nondeployed hedge requirements under the New START 
Treaty are being analyzed as part of the ongoing Nuclear Posture Review 
Implementation Study. As the review has not been formally completed, I 
cannot comment on specific content. Once complete, we intend to brief 
Congress on the results of the study. At that time, we will be able to 
address this question.

    Question. Former Secretary Gates also stated in 2010 that ``[U.S.] 
upload capability will be more than sufficient under New START.''

  <bullet> (a). If it was more than sufficient under New START, could 
        you furnish the analysis to this committee that this 
        administration has done regarding what sufficient upload 
        capability would be available to the United States if it were 
        to eliminate warheads from its nondeployed hedge and/or make 
        cuts that would eliminate a leg of our Triad?

    Answer. To date, no final decisions have been made with respect to 
force structure under the New START Treaty; such decisions will be 
informed by the ongoing Nuclear Posture Review (NPR) Implementation 
Study. These decisions will be consistent with the goals of the 2010 
NPR, including to: maintain strategic deterrence and stability at 
reduced nuclear force levels; strengthen regional deterrence and 
provide assurance to our allies and partners; maintain a nuclear triad; 
and maintain a safe, secure, and effective nuclear deterrent.

  <bullet> (b). Would this administration, now or at any time in the 
        future, entertain the notion of U.S.-Russian parity in upload 
        capability in a future treaty?

    Answer. As the 2010 Nuclear Posture Review stated, large 
disparities in nuclear capabilities could raise concerns on both sides 
and among U.S. allies and partners, and may not be conducive to 
maintaining a stable, long-term strategic relationship, especially as 
nuclear forces are significantly reduced. The large imbalance in 
Russia's nonstrategic nuclear stockpile relative to that of the United 
States is a clear reason why we need an arms control arrangement that 
lowers overall numbers. The administration would entertain the notion 
of U.S.-Russian parity in overall warhead numbers--recognizing both the 
imbalance in Russia's nonstrategic nuclear stockpile and our advantage 
in upload capability--in a future treaty.

         EFFECTIVE VERIFICATION TIMELY RESPONSES TO SIGNIFICANT

    The standard of effective verification was established during 
consideration of the INF Treaty. Testifying before the Foreign 
Relations Committee on the INF Treaty in 1988, Ambassador Paul Nitze 
provided the definition of ``effective verification.'' He stated: 
``What do we mean by effective verification? We mean that we want to be 
sure that, if the other side moves beyond the limits of the Treaty in 
any militarily significant way, we would be able to detect such a 
violation in time to respond effectively and thereby deny the other 
side the benefit of the violation.''
    With regard to the New START Treaty, the committee heard testimony 
in closed session from U.S. intelligence community witnesses and from 
New START negotiators. The committee also reviewed both public and 
classified materials on these issues, including: (a) the National 
Intelligence Estimate (NIE) on U.S. capabilities to monitor Russian 
compliance with the treaty; (b) the State Department's report on the 
verifiability of the treaty, provided pursuant to section 306(a)(1) of 
the Arms Control and Disarmament Act (22 U.S.C. 2577(a)(1)); and, (c) a 
letter from the Secretary of Defense that summarized the Defense 
Department's assessment of the military significance of potential 
Russian cheating or breakout, based on the 2010 New START NIE on 
monitoring the treaty.

    Question. With regard to each of the documents and testimony cited 
above, please stipulate whether a U.S. unilateral decision to go well 
below New START Treaty aggregate Article II numbers would affect any 
key judgments contained in any of the relevant documents and testimony 
provided to the Senate in 2010 regarding U.S. upload responses to 
noncompliance.

    Answer. As stated in the Nuclear Posture Review, the United States 
is committed to a long-term goal of a world free of nuclear weapons. 
Further, any future reductions must continue to strengthen deterrence 
of potential regional adversaries, strategic stability vis-a-vis Russia 
and China, and assurance of our allies and partners. The United States 
will continue to ensure that, in the calculations of any potential 
opponent, the perceived gains of attacking the United States or its 
allies and partners would be far outweighed by the unacceptable cost of 
the U.S. response. As did my predecessor, I assess that Russia would 
not be able to achieve militarily significant cheating or breakout 
under the New START Treaty, due to both the New START Treaty 
verification regime and the inherent survivability and flexibility of 
the planned U.S. strategic force structure. Speculation on potential 
impacts of any future U.S. reductions of any sort absent details on the 
proposed scale and timing of the hypothesized unilateral reductions is 
not possible.

    Question. Please provide an analysis of American ability to respond 
to militarily significant violations of the New START Treaty should the 
United States decide to (a) eliminate ICBMs or heavy bomber-accountable 
weapons and/or (b) unilaterally to reduce or eliminate any warhead that 
does not count toward the aggregate limit specified in clause (b) of 
paragraph (1) of Article II of the New START Treaty as applied to 
deployed ICBMs, deployed SLBMs, and deployed heavy bombers.

    Answer. DOD is continuing to study the final force structure and 
will announce end-state force structure decisions at a later date. In 
general, however, the U.S. force structure changes under the New START 
Treaty will ensure that the United States maintains the ability to 
hedge effectively against technical and geopolitical developments by 
preserving our capability to upload, as well as to change our force 
posture as necessary. As stated in the 2010 Nuclear Posture Review 
Report, the United States also is committed to achieving these 
objectives by maintaining all three legs of the nuclear Triad under the 
New START Treaty--ICBMs, heavy bombers, and SSBNs.
    With respect to reductions or eliminations of warheads, the United 
States maintains nondeployed nuclear warheads in the U.S. stockpile to 
provide logistics spares, support the Quality Assurance and Reliability 
Testing program, and hedge against technical or geopolitical 
developments. The nondeployed stockpile currently includes more 
warheads than would be required for these purposes. Progress in 
restoring NNSA's production infrastructure will also allow the United 
States to reduce its reliance on, and thus further reduce the supply 
of, reserve warheads. Again however, any such reductions will be 
designed to account for possible adjustments in the Russian strategic 
force configuration.

                          CONDITION (9) REPORT

    Question. Condition (9) of the December 22, 2010, Senate Resolution 
of Advice and Consent to the Ratification of the New START Treaty 
required that if appropriations are enacted that fail to meet the 
resource requirements set forth in the President's 10-year plan, or if 
at any time more resources are required than estimated in the 
President's 10-year plan, the President shall submit to Congress, 
within 60 days of such enactment or the identification of the 
requirement for such additional resources, as appropriate, a report 
detailing (1) how the President proposes to remedy the resource 
shortfall; (2) if additional resources are required; (3) the impact of 
the resource shortfall on the safety, reliability, and performance of 
United States nuclear forces; and (4) whether and why, in the changed 
circumstances brought about by the resource shortfall, it remains in 
the national interest of the United States to remain a Party to the New 
START Treaty. We did not receive this report until June of this year, 
well after 60 days since the enactment of lower levels of 
appropriations for nuclear weapons in fiscal year 2012.

  <bullet> Why did it take so long to submit this report?

    Answer. We apologize for the delay in submitting the report. The 
primary reason the report is late is because of the analysis and 
assessment required by Condition 9 of the Senate's Resolution of Advice 
and Consent to the Ratification of the New Start Treaty. This analysis 
took time to complete and formed the basis of information provided in 
DOD's Report prepared in response to section 1043 of the National 
Defense Authorization Act for Fiscal Year 2012 that was submitted to 
Congress in May 2012. The logical sequencing of reports placed initial 
priority on completing the Section 1043 Report before the Condition 9 
report. The Condition 9 report was completed and submitted to Congress 
approximately 1 month after the Section 1043 Report.

                              UNCERTAINTY

    Former Secretary Gates stated in 2010 that ``The limits and 
verification provisions of the New START Treaty, if it is ratified and 
enters into force, will reduce uncertainty relative to what it 
otherwise would have been the case, and therefore will reduce the 
requirement for the United States to hedge.''

    Question. How many of the warheads within the nondeployed hedge are 
necessary to maintain a credible and effective hedge both (a) at 
Article II limits of the New START Treaty and (b) below them?

    Answer. The Department of Defense continues to assess that Russia 
will not be able to achieve militarily significant cheating or breakout 
under the New START Treaty without our detecting such a violation in 
time to respond effectively. This assessment is based on both the 
Treaty's verification regime and the inherent survivability and 
flexibility of the planned U.S. strategic force structure. The United 
States retains a hedge against technical and geopolitical developments, 
including Russian noncompliance.

    Question. If the administration does take a decision to reduce or 
eliminate some number of American nondeployed warheads, do the New 
START Treaty's annual quota of 10 Type One inspections, data exchanges, 
notifications, unique identifiers, and our extant National Technical 
Means provide you with sufficient confidence to state that if Russia 
were ever to be in noncompliance with Article II's central limit of 
1,550 warheads on deployed ICBMs, deployed SLBMs, and nuclear warheads 
counted for deployed heavy bombers, that United States could 
effectively and in a timely manner respond to Russian noncompliance?

    Answer. The Department of Defense continues to assess that Russia 
will not be able to achieve militarily significant cheating or breakout 
under the New START Treaty without our detecting such a violation in 
time to respond effectively. This assessment is based on both the 
Treaty's verification regime and the inherent survivability and 
flexibility of the planned U.S. strategic force structure. The United 
States retains a hedge against technical and geopolitical developments, 
including Russian noncompliance.

                              GOING LOWER

    The New START Treaty allowed each side 7 years to reach its treaty-
compliant force structure, and to modify it over the life of the 
treaty. Freedom to mix and match systems, and to modernize, are 
guaranteed by the treaty. To date, the administration has not yet been 
clear with regard to how it would structure our forces during the next 
6 years, prior to the time when the United States must be ``at or 
below'' Article II limits.

    Question. Why would this administration need to contemplate or even 
to complete lower numbers of strategic offensive arms than the limits 
in New START permit at any time before the treaty itself requires it?

    Answer. The long-term goal of U.S. policy is the complete 
elimination of nuclear weapons. The 2010 Nuclear Posture Review Report 
stated that the administration would engage Russia after ratification 
and entry into force of the New START Treaty in negotiations aimed at 
achieving substantial further nuclear force reductions and transparency 
that would cover all nuclear weapons--deployed and nondeployed, 
strategic and nonstrategic.
    However, as stated in the NPR, the United States will continue to 
ensure that, in the calculations of any potential opponent, the 
perceived gains of attacking the United States or its allies and 
partners would be far outweighed by the unacceptable costs of the 
response. The NPR also stated that the size and pace of any future U.S. 
nuclear force reductions will be implemented in ways that maintain the 
reliability and effectiveness of our security assurance to our allies 
and partners.

    Question. If it was the administration's intention to ``go lower,'' 
then why did it not simply extend the START I Treaty, and negotiate a 
treaty covering deployed, nondeployed and nonstrategic systems as the 
follow-on to START I?

    Answer. The Russian Federation advised the United States that it 
was not inclined to extend the START Treaty in its current form and 
wanted a new bilateral treaty. In October 2006, the United States 
concurred that the START Treaty should not be extended, although some 
provisions of that Treaty might be carried forward. Thus, a simple 
extension of the START Treaty was not a viable option, and, in order to 
reestablish a verification regime, the administration adopted the goal 
of concluding a new treaty to replace the START Treaty, thus limited to 
strategic warheads and delivery systems.
                                 ______
                                 

        Responses of NNSA Administrator D'Agostino to Questions
                 Submitted by Senator Richard G. Lugar

                       UPLOAD UNDER LOWER NUMBERS

    Former Chairman of the Joint Chiefs of Staff Admiral Mullen stated 
in answers to my questions in 2010 that:

          New START . . . provides the United States with the 
        flexibility to deploy, maintain, and modernize its strategic 
        nuclear forces in the manner that best protects U.S. national 
        security interests. The U.S. will retain the ability to 
        ``upload'' a significant number of nuclear warheads as a hedge 
        against any future technical problems with U.S. delivery 
        platforms or warheads, a technical breakthrough by an adversary 
        that threatens to neutralize a U.S. strategic delivery system, 
        or as a result of a fundamental deterioration in the 
        international security environment.

    A recent press article I submit for the record states that an 
``[administration] official floated the possibility of reducing the 
number to about 1,000'' and that ``The United States would also explore 
the possibility for unilaterally abandoning a portion of [its] roughly 
3,000 reserve warheads.''

                            (Story Follows)

        U.S. TO UNVEIL NEW PLANS TO FURTHER REDUCE NUCLEAR ARSENAL--
        WASHINGTON, JUNE 16, KYODO NEWS

        (HTTP://ENGLISH.KYODONEWS.JP/NEWS/2012/06/164247.HTML)

          U.S. President Barack Obama is slated to compile and unveil 
        soon, possibly by the end of this month, plans to further 
        reduce the country's nuclear arsenal, high-level U.S. officials 
        said Friday.
          The U.S. government would seek, through future negotiations 
        with Russia, a substantially larger reduction in operational 
        strategic nuclear weapons from the 1,550 the United States is 
        allowed to maintain under a new START treaty with Moscow.
          The United States would also explore the possibility for 
        unilaterally abandoning a portion of the roughly 3,000 reserve 
        warheads not yet deployed, the officials said.
          While the Obama administration is making final adjustments 
        over the size of the reduction target for operational strategic 
        nuclear weapons, one official floated the possibility of 
        reducing the number to about 1,000. Nuclear experts close to 
        the Obama administration have put the figure at between 1,000 
        and 1,100. The administration's plans to seek additional cuts 
        in nuclear weapons reflects Obama's aspiration to seek a world 
        without nuclear weapons as proclaimed in a speech in Prague, 
        the Czech Republic, in April 2009.
          But the administration plans to make no unilateral cuts in 
        strategic
         nuclear weapons, instead seeking reassurances from Moscow 
        through a new treaty or a political agreement that Russia would 
        make similar reductions, the officials said. Russia, for its 
        part, is warily watching its Cold War adversary over concern 
        that U.S. efforts to build an antiballistic shield in Europe 
        could render Russia's strategic nuclear weapons ineffective, 
        showing no sign that it would be willing to respond to a U.S. 
        offer. Obama's new operational guidelines for nuclear weapons 
        would be the culmination of work launched after his 
        administration concluded the so-called Nuclear Posture Review 
        in 2010.
          The Obama administration has argued that one of the principal 
        roles
         nuclear weapons play in U.S. policy is to provide a so-called 
        ``nuclear umbrella'' to such U.S. allies as Japan and South 
        Korea. The administration concluded in its latest review that 
        the United States can maintain an effective nuclear deterrent 
        even if it maintains fewer than the 1,550 strategic nuclear 
        weapons stipulated under the New Strategic Arms Reduction 
        Treaty with Russia, according to the officials. The option of 
        reducing them to the 300 level was discussed but eventually 
        dismissed as insufficient to maintain a credible deterrent, the 
        officials said. The United States currently has about 5,000 
        nuclear weapons in its stockpile, of which just below 2,000 are 
        operational strategic nuclear weapons, 200 are shorter-range 
        operational tactical weapons, and about 3,000 reserve nuclear 
        warheads. Separately, it has about 3,000 warheads waiting to be 
        dismantled.

    Question. Can the United States maintain sufficient and credible 
upload capability that serves as a hedge against technical and 
geopolitical uncertainties if it pursues unilateral cuts outside of any 
treaty?

    Answer. NNSA stands ready to support a safe, secure, and effective 
nuclear arsenal. NNSA is working closely with DOD to ensure 
requirements and a responsive infrastructure is properly resourced. The 
Department of Defense and State should address specific questions 
regarding upload capability, hedge quantities, and treaty implications.

    Question. Can NNSA actually support existing Lifetime Extension 
Programs as well as a large increase in the number of warheads that the 
United States would eliminate, should deep cuts to the nondeployed 
hedge be directed?

    Answer. Yes, NNSA is planning to support the necessary Life 
Extension Programs and is working closely with DOD to ensure sufficient 
resources exist to meet LEP requirements. Cuts to the nondeployed hedge 
would increase the inventory of weapons awaiting dismantlement. In such 
a case, NNSA would hold to the commitment to eliminate by FY 2022 the 
inventory of weapons awaiting dismantlement at the end of FY 2009 and 
develop an updated plan to eliminate any additional weapons in a safe 
and fiscally responsible manner.

    Question. If so, what are the likely budgetary implications for the 
NNSA?

    Answer. NNSA is currently working closely with the DOD to develop a 
budget to support the weapons programs. When that effort completes, we 
will be able to provide a better assessment of the budget implications.

                       MODERNIZATION COMMITMENTS

    The 2010 deal worked out between the administration and the Senate 
to secure Senate support for ratification of the New START Treaty 
appears to have fallen apart. The spending reductions in fiscal year 
2012 along with those proposed for FY 2013 through FY 2017 for Weapons 
Activities, erase the $4.1 billion funding increase promised in 
November 2010. On December 1, 2010, the Directors of the three national 
nuclear weapons laboratories wrote to me and Chairman Kerry that ``We 
believe that the proposed budgets provide adequate support to sustain 
the safety, security, reliability, and effectiveness of America's 
nuclear deterrent within the limit of 1,550 deployed strategic warheads 
established by the New START Treaty with adequate confidence and 
acceptable risk.''

    Question. Given the cuts we have seen enacted to 2010 plans, do you 
believe that existing and projected budgets for the next five years 
still provide adequate support to sustain the safety, security, 
reliability and effectiveness of America's nuclear deterrent within the 
limit of 1,550 deployed strategic warheads established by the New START 
Treaty with adequate confidence and acceptable risk?

    Answer. The President's budget for 2013 sustains the safety, 
security, and effectiveness of America's nuclear deterrent.
    Congressional appropriations for nuclear weapons in fiscal year 
2012 were approximately $416 million less than the President's budget 
request and fail to meet the resource requirements set forth in the 
President's 10-year plan, referred to in section 1251 of the National 
Defense Authorization Act for fiscal year (FY) 2010 (Public Law 111-84; 
123 Stat. 2549).
    As a result of this shortfall and the constraints of the Budget 
Control Act of 2011 (Public Law 112-25), enacted in August 2011, the 
administration is adjusting the 10-year nuclear weapons program. Over 
the next few months, the Departments of Defense and Energy will 
continue to work together to develop a responsible and executable plan 
that ensures the continuation of required programs and capabilities. 
This will be accomplished while also meeting the new requirements of 
the Budget Control Act. The Departments are jointly conducting a 
thorough analysis to ensure that critical capabilities are available 
when needed, that programs are affordable, and that tradeoffs within 
the programs are rigorously analyzed.

    Question. If so, why?

    Answer. The FY 2013 President's budget is the third consecutive 
increase in the Weapons Activities budget, resulting in a 19-percent 
increase for Weapons Activities since the FY 2010 budget. That reflects 
continued support from both the administration and the Congress at a 
time when there is significant scrutiny of all budgets.

    Question. Why has the administration not yet submitted/completed a 
Future Years Nuclear Security Plan (FYNSP)?

    Answer. The administration is committed to ensuring that the 
nuclear weapons deterrent remains safe, secure, and effective. The FY 
2011 and 2012 President's budget requests and their associated 
Stockpile Stewardship and Management Plans comprehensively addressed 
the aging stockpile and infrastructure problems head-on.
    Under the Budget Control Act of 2011, with new cost estimates for 
several NNSA programs, and with the $416 million reduction to NNSA's FY 
2012 request for weapons activities in the FY 2012 appropriation, the 
NNSA now faces new fiscal realities. In light of these, NNSA is working 
with the Department of Defense to conduct the analysis necessary to 
develop a responsible plan that ensures the continuation of required 
programs and capabilities, while taking account of these new fiscal 
realities. This analysis is expected to be completed in time to inform 
the FY14 budget submission.

                          CONDITION (9) REPORT

    Question. Condition (9) of the December 22, 2010, Senate Resolution 
of Advice and Consent to the Ratification of the New START treaty 
required that if appropriations are enacted that fail to meet the 
resource requirements set forth in the President's 10-year plan, or if 
at any time more resources are required that estimated in the 
President' 10-year plan, the President shall submit to Congress within 
60 days of such enactment or the identification of the requirement for 
such additional resources, as appropriate, a report detailing (1) how 
the President proposed to remedy the resource shortfall; (2) if 
additional resources are required; (3) the impact of the resource 
shortfall on the safety, reliability, and performance of United States 
nuclear forces; and (4) whether and why, in the changed circumstances 
brought about by the resource shortfall, it remains in the national 
interest of the United States to remain a Party to the New START 
Treaty.
    We did not receive this report until June of this year, well after 
60 days since the enactment of lower levels of appropriations for 
nuclear weapons in fiscal year 2012.

  <bullet> Why did it take so long to submit this report?

    Answer. Congress passed the Consolidated Appropriations Act, 2012 
on December 23, 2011, resulting in an appropriation for Weapons 
Activities that was $416 million less than requested. At the same time, 
NNSA, in consultation with our DOD partners, was in the process of 
finalizing the FY13 President's Budget Request. The appropriation 
shortfall, and the constraints of the Budget Control Act (Public Law 
112-25), necessitated additional adjustments to our programs and 
delayed our report. As noted in the report you received, we continue to 
work with DOD to consider the best mix of programs to accomplish DOD 
priorities within available resources. In addition, NNSA will continue 
to work to meet these reporting requirements in a timely and accurate 
manner, and will coordinate with DOD to ensure that this report 
addresses the concerns expressed by Congress.

             ENRICHMENT AND REPROCESSING IN 123 AGREEMENTS

(Answers to the following three questions drafted by the Department of 
State with DOE/NNSA concurrence)

    Earlier this year, the administration adopted a ``case-by-case'' 
policy with respect to application of a standard such as may be found 
in the Agreed Minute to the 2009 123 Agreement with the United Arab 
Emirates regarding enrichment and reprocessing (ENR). Administration 
policy is to submit 123 agreements with new countries that do not 
contain ENR commitments, such as the agreement with Vietnam or Jordan.

    Question. Is it true that under the revised Guidelines regarding 
ENR transfers adopted by the Nuclear Suppliers Group (NSG) that neither 
Jordan nor Vietnam would qualify for transfers of enrichment 
technology?

    Answer. Under the existing Nuclear Suppliers Group Guidelines, we 
consider it highly unlikely that any supplier would transfer enrichment 
technology to either Jordan or Vietnam regardless of whether they meet 
the criteria. Neither country in the foreseeable future is expected to 
develop a nuclear power program of sufficient magnitude to justify the 
establishment of a domestic uranium enrichment capability. If in the 
future a supplier were to build an enrichment plant in either country, 
the revised Guidelines rule out the transfer of all technology that 
could enable the recipient state to replicate it.

    Question. If so, then why is the administration apparently no 
longer seeking ENR commitments from Jordan or Vietnam?

    Answer. The administration is currently conducting 123 agreement 
negotiations with both Jordan and Vietnam. While we are not able to 
comment publicly on the details of those ongoing negotiations, we are 
discussing assurances on ENR with both countries.

    Question. Will either the Jordan or Vietnam 123 agreements be 
submitted to Congress this year?

    Answer. It is very unlikely that the President will submit any 
proposed 123 agreements to the Congress in 2012 due to the lack of 
potential days of continuous session review remaining on the calendar.

                 EXECUTIVE ORDER REGARDING RUSSIAN HEU

    In 1993 the United States agreed to purchase low enriched uranium 
from the down-blending of 500 metric tons of Russian highly enrichment 
uranium (HEU). This deal expires in 2013. Russia possesses large 
amounts of enrichment capacity from its cold war weapons complex. It 
has half of the world's enrichment capacity and only 7 percent of the 
world's reactors. On June 25, the President signed an Executive order, 
and submitted the text of a letter to the Speaker of the House of 
Representatives and the President of the Senate, both regarding Russian 
HEU.

    Question. What was the necessity for this Executive order?

    Answer. The protection of Russian assets in the United States 
related to the HEU Purchase Agreement was necessitated in 2000. In 
January 2000, Swiss-based Compagnie Noga D'Importation et D'Exportation 
S.A. (``Noga'') filed suit in the United States to enforce a Swedish 
arbitration court award against the Russian Federation. Noga sought to 
seize Russian Federation assets in the United States, including cash 
payments to the Russian Executive Agent (Techsnabexport or ``TENEX'') 
for deliveries made under the HEU Purchase Agreement, as well as the 
natural uranium hexafluoride component of low enriched uranium (LEU) 
delivered to Russia under the Agreement.
    In May 2000, the Government of the Russian Federation suspended 
deliveries of LEU derived from Russian weapons-origin HEU under the 
Purchase Agreement, fearing that future payments for deliveries would 
be seized in the United States by Noga. The impasse over protection of 
Russian assets in the United States from Noga and other potential 
claimants against the Russian Federation threatened to imperil the 
Agreement and halt the down-blending of Russian HEU from dismantled 
nuclear weapons.
    In June 2000, President Clinton declared a state of national 
emergency posed by the risk of nuclear proliferation created by the 
accumulation of large quantities of weapons-usable fissile material in 
the Russian Federation. The President invoked his International 
Emergency Economic Powers Act (IEEPA) authority to order all Russian 
Federation assets in the United States related to the HEU Purchase 
Agreement protected, and therefore not subject to seizure, attachment, 
judgment, garnishment, or other judicial process. This protection 
allowed the Russian Federation to resume shipment of LEU to the United 
States under the Agreement. Executive Order (EO) 13159 was signed on 
June 21, 2000.
    Each year since 2000, the President has ordered the continuation of 
the state of national emergency and has renewed EO 13159, thereby 
protecting Russian assets related to the HEU Purchase Agreement in the 
United States. Deliveries of LEU derived from nuclear weapons have 
continued without interruption since 2000. The President's Executive 
Order 13617 of June 25, 2012, was the most recent order to renew EO 
13159 protection and ensure the continuation of the HEU Purchase 
Agreement for its nonproliferation and international security benefit.

    Question. My friend and colleague former Senator Pete Domenici 
authored legislation in 2008 that links increased Russian access to the 
U.S. market for enriched uranium with the continued elimination of 
surplus HEU from Russia's weapons stockpile. What measures are in place 
to continue our efforts in this regard?

    Answer. The United States has demonstrated a desire to down-blend 
additional Russian HEU beyond 2013, but Russia has expressed no 
interest in availing itself of the additional U.S. market access 
offered by Public Law 110-329, also known as the ``Domenici Law,'' in 
exchange for additional surplus HEU elimination. Russia has declined to 
consider alternative concepts for continued HEU elimination after the 
conclusion of the HEU Purchase Agreement, stating that Russia will 
focus instead on the commercial aspects of exporting LEU and other 
nuclear services. The United States continues to press Russia on the 
possibilities for additional Russian HEU down-blending.

    Question. After the expiration of the HEU Purchase Agreement (HEUP) 
next year, is this administration committed to ensuring that if Russia 
either does not complete the terms of the HEUP or it seeks to increase 
its market share of U.S. enrichment above 20 to 25 percent, that market 
access be contingent on continuing nonproliferation efforts to down-
blend excess Russian HEU?

    Answer. The administration is committed to enforcing both the 
Agreement Suspending the Antidumping Investigation on Uranium From the 
Russian Federation and the Domenici Law. This will ensure that if 
Russia does not complete the terms of the HEU Purchase Agreement or 
seeks to increase Russia's share of the U.S. enriched uranium market to 
more than 20 percent during the 2014-2020 time period, market access 
will be contingent on the further elimination of Russian HEU.
                                 ______
                                 

   Responses of NNSA Administrator Thomas P. D'Agostino to Questions 
                     Submitted by Senator Tom Udall

    Question. Has NNSA made the right decision with regards to its 
responsibility to maintain critical infrastructure and ensure that our 
most critical resources, our people who do the work at the labs, are 
taken care of? The existing CMR facility, completed in 1952, resides on 
a seismic fault. This fact has led to the closure of one wing, and the 
scaling down of work in the facility. Much of the infrastructure at the 
current CMR facility is outdated and/or not up to current standards for 
safety and scientific research. According to conclusions in the 
bipartisan report ``America's Strategic Posture: Final Report of the 
Congressional Commission on the Strategic Posture of the United 
States'' (Strategic Posture Report), the site is ``genuinely decrepit 
and . . . maintained in a safe and secure manner only at high cost.'' 
NNSA has continually mismanaged and delayed the replacement project, 
and I hope that the Congress can find a solution, which will benefit 
our national security by investing in our scientific base and ensuring 
that we have the tools to meet critical mission requirements.
    Not since 2008 has Los Alamos National Labs been forced to make 
serious cuts to its workforce. In February of this year, Director 
Charles McMillan, in an attempt to save money as a result of budget 
shortfalls, primarily in weapons funding, announced that LANL would 
make cuts in its workforces by seeking voluntary retirements between 
400 and 800 personnel.

  <bullet> Has NNSA assessed how these cuts will impact the technical 
        and scientific 
        expertise at the labs, and the ability of LANL to both maintain 
        and recruit the talented staff it needs to maintain its 
        scientific and national security mission?

    Answer. Maintaining the vitality of the scientific and technical 
workforce is assessed at the overall laboratory level. Two areas 
continue to be important: the retention of our most critical, and 
difficult to reconstitute, skills and the future ability to draw talent 
into the laboratory. LANS implemented a voluntary separation program 
this year and accepted 557 applicants. Prior to accepting applications, 
LANS assessed their skills and determined they were not critical to 
mission accomplishment. If an applicant possessed critical skills, they 
were not allowed to participate in the program. During the process, 
LANS assured NNSA they would be able to continue to provide world-class 
science and meet mission requirements. In addition, we are streamlining 
Laboratory Directed Research and Development (LDRD) approvals that help 
foster innovation, continuing strategic discussions among interagency 
leadership on the critical skills needed to support the Nation's 
broader national security interests through our four-agency Governance 
Charter, and focusing on the next generation through pipeline programs, 
including minority serving institutions. As NNSA continues to study the 
impacts to existing facilities, personnel, and Nuclear Security 
Enterprise capabilities, workforce plans will be adjusted as necessary 
to meet mission requirements. In addition, the National Academy study 
on the quality of science at the NNSA laboratories, including Los 
Alamos, will provide us with a valuable external assessment.

    Question. And has NNSA determined or studied the impact on 
recruitment, retention, and training of the critical and highly 
talented Los Alamos workforce if the CMR is closed in 2019 without 
CMRR-NF built to replace it and how will the delay of CMRR-NF impact 
the overall scientific mission at the labs?

    Answer. NNSA and the laboratory work closely together to ensure all 
appropriate steps are taken to effectively recruit, retain, and train 
the Los Alamos workforce. Deferral of CMRR-NF construction for at least 
5 years has had an immediate effect on the temporary construction 
workforce that was planned to construct CMRR-NF. A plan is being 
finalized to maintain continuity in analytical chemistry and material 
characterization capabilities by leveraging existing LANL facilities as 
we continue the transition out of CMR. As a result, we do not expect 
the planned completion of transitioning NNSA program operations from 
CMR to other facilities by approximately 2019 to have a major effect on 
the laboratory's plutonium workforce.

    Question. Given the importance of maintaining the intellectual 
capability at Los Alamos, which as the 2009 Strategic Posture Report 
stated was ``in immediate danger of attrition'' because there is a risk 
that the ``broad, diverse, and deep set of scientific skills . . .'' 
could be lost if NNSA did not build the CMRR-NF facility.
    And, because the degradation of critical infrastructure at LANL not 
only impacts the nuclear mission, but also other national security 
priorities such as nonproliferation, nuclear threat reduction, nuclear 
forensics, alternative energy programs, and other highly technical 
programs.

  <bullet> Why did NNSA make the decision to completely zero out the 
        program without, as the SASC mark has concluded, seeking input 
        from the labs, Congress, and DOD, and without analyzing the 
        long-term impact on our intellectual infrastructure?

    Answer. NNSA considered input from the Laboratory Directors and 
coordinated with DOD; the Secretary consulted several independent sets 
of advisors; and NNSA used the direction and guidance in the markup of 
the FY 2012 Congressional Budget process to inform the development of 
the President's Budget Request for FY 2013. There was broad consensus 
on the direction that was adopted. During budget formulation when the 
President's budget data had to be embargoed, NNSA officials continued 
to meet with congressional staff as requested. Throughout this process, 
NNSA received expert advice from the labs and plants. Through these 
consultations and analyses, we began to have concerns about our ability 
to simultaneously execute two construction projects estimated at $4-7 
billion each (namely UPF and CMRR-NF), especially given the fiscal 
realities of the Budget Control Act and reductions to the President's 
FY 2012 budget. Following a series of meetings between DOD and DOE 
officials, the Nuclear Weapons Council signed out a letter on March 27, 
2012, acknowledging the programmatic realignments including the 
decision to defer construction of CMRR-NF for at least 5 years.
    This decision was made conscious of the fact that deferring CMRR-NF 
would increase long-term risk to the overall mission, specifically, 
risk associated with the need to achieve a responsive, resilient 
infrastructure, which extends beyond the needs of the currently 
scheduled LEPs. NNSA, DOD and the Laboratory Directors believe that the 
interim strategy presents an acceptable, short-term level of risk to 
our plutonium capabilities, while protecting the core elements of the 
program including the intellectual infrastructure.

    Question. The fiscal year 2012 DOE budget predicted a need of $190 
million for the Y-12 UPF project in fiscal year 2013, and $350 million 
in 2014. CMRR-NF, according to the fiscal year 2012 submission would 
require $300 million in 2013 and $350 million in 2014. In the fiscal 
year 2013 budget submission those numbers were very different. Instead 
of $190 million for UPF, the request was increased to $340 million, a 
$150 million plus up. On the other hand, CMRR-NF was reduced to zero. 
The SASC mark authorizes $150 million of the amounts appropriated in 
fiscal year 2013 for the construction of the CMRR-NF facility and 
prohibits NNSA from reducing amounts authorized for UPF.

  <bullet> Why did NNSA determine there was a need to plus-up UPF by 
        $150 million just a year after NNSA proposed a smaller need?

    Answer. Given the fiscal realities of the Budget Control Act, NNSA 
studied alternatives to continue meeting the mission and determined 
that construction of the Uranium Processing Facility (UPF) Project, the 
B61-12 Life Extension Program (LEP), and construction of the CMRR-NF 
Project could not continue simultaneously. The decision to move forward 
with UPF construction and the B61-12 LEP, but defer CMRR nuclear 
facility construction, was made after consultation with Laboratory 
Directors and Nuclear Weapons Council members, and is fully consistent 
with findings from an independent DOD review of both projects in 2011 
that confirmed Building 9212 at Y-12 presents the highest programmatic 
and operational risk. In order to address the greatest risks and to 
implement lessons learned from other projects regarding the benefits of 
a front-loaded budget profile, NNSA requested accelerated funding for 
the UPF Project and revised the UPF project plan to prioritize the 
replacement of the highest-risk operations in Building 9212.

    Question. Los Alamos Director Charles McMillan testified in April 
regarding the cost of CMRR-NF that ``Our current estimate at Los Alamos 
is something in the region of $3.7 billion, but . . . as delay occurs, 
we are moving toward . . . $5 billion.'' Former Director Anastasio also 
testified previously that ``any delay in a project ultimately costs you 
money. So, if we delay the start and the process of this facility, it 
means, in the end, the integrated costs--although in 1 year you might 
save money, over the life of the project, it's going to cost you 
money.''
    Given this testimony, wouldn't it be more prudent, as stewards of 
taxpayer dollars, to fund CMRR-NF at a lower level than proposed, 
perhaps at $150 million as the SASC mark proposes? This might require a 
more equitable sharing of the burdens across the labs, but could 
prevent delays in the project and prevent what Los Alamos Director 
McMillan said could drastically increase the price of the building . . 
. while also protecting our intellectual base.

    Answer. CMRR-NF was deferred to allow NNSA to pursue higher 
priority and more urgent stockpile management commitments, while 
continuing to meet DOD's plutonium requirements and sustaining our 
existing infrastructure and key science, technology, and engineering 
programs. Any other requirements or activities deferred or delayed, in 
lieu of deferring CMRR-NF, would be subject to a similar escalation in 
cost. However, NNSA considers the deferral of CMRR-NF as the option 
that introduces the least additional risk to the overall program.

    Question. Did NNSA consider cutting other less vital programs 
instead of CMRR-NF and which programs were considered?

    Answer. NNSA analyzed alternatives other than deferring CMRR-NF. 
The three other options identified were to (1) defer construction of 
the Uranium Processing Facility (UPF), (2) significantly reduce 
Facilities Operations and Maintenance, or (3) in consultation with DOD, 
reduce the scope of the B61-12 LEP. NNSA assessed that underfunding 
facility maintenance would have put all the prioritized activities of 
our core capabilities at an unacceptable risk level. NNSA also 
determined that a deferral of UPF would be unacceptable, because it 
would require NNSA to conduct stockpile modernization in a facility 
with an increasingly high risk of significant shutdown and for which 
there were no viable alternatives. In addition, reducing B61-12 LEP 
scope beyond DOD threshold requirements would adversely affect the 
nuclear deterrent.

    Question. The 2009 Congressional Commission on the Strategic 
Posture of the United States found that ``a short-term loss of 
plutonium capabilities may hurt the weapon program more than a short-
term loss of enriched uranium capabilities.'' Furthermore, the 
Strategic Posture Report also found that the ``Los Alamos plutonium 
facility is required independent of stockpile size'' and that ``the Los 
Alamos facility has the more mature design.''

  <bullet> Given this finding, why has NNSA decided to move ahead with 
        the Y-12 Uranium Processing Facility ahead of the CMRR-NF 
        facility at Los Alamos instead of concurrently as originally 
        planned?

    Answer. In a time of fiscal austerity, NNSA is committed to being a 
responsible steward of taxpayer dollars. The decision to move forward 
with UPF construction and defer CMRR nuclear facility construction was 
made after extended consultation with our Laboratory Directors and the 
Nuclear Weapons Council members, and is fully consistent with findings 
from an independent DOD review of both projects in 2011 that confirmed 
Building 9212 at Y-12 presents the highest programmatic and operational 
risk. Given the not less than 5-year deferral of CMRR-NF construction, 
NNSA is preparing to take steps with an interim plutonium strategy to 
ensure continuity of all required capabilities and uninterrupted 
plutonium operations.

    Question. The Lab Directors and Department of Defense have been 
clear that the current NNSA plan does not meet critical national 
defense mission requirements. This seems to contradict NNSA's assertion 
in its Revised Plutonium Strategy-Supplemental Information for the 
President's FY 2013 Budget Request that ``With the delay in CMRR-NF 
construction, NNSA will maintain the Nation's plutonium capability 
using existing infrastructure and capabilities.'' Furthermore, the 
November 2010 Update to the National Defense Authorization Act of FY 
2010 Section 1251 Report (1251 Report) stated that both CMRR and UPF 
Construction are ``required to ensure the United States can maintain a 
safe, secure, and effective arsenal 
over the long-term'' and that the ``Administration remains committed to 
their construction.''

  <bullet> How does delaying the construction of CMRR meet that 
        commitment and does NNSA disagree with the testimony by the 
        current and former Directors, and the Department of Defense, 
        that Los Alamos and NNSA do not have the capability to meet 
        mission requirements without the construction of CMRR-NF?

    Answer. The need for the long-term capabilities of CMRR-NF is still 
valid and will be addressed. Although it does increase risk to the 
mission, deferring CMRR-NF construction for at least 5 years will 
enable NNSA to meet higher priority and more urgent near term 
commitments, including stockpile assessment and maintenance, W76-1 LEP, 
B61-12 LEP, W88 Alt 370, and UPF. The short-term risks associated with 
deferring CMRR-NF were assessed by NNSA, the Laboratory Directors and 
the Department of Defense to be manageable, with near term planning and 
production adjustments, which can provide sufficient production 
capacity (for approximately 30 newly manufactured pits/year and 90 
reused pits/year starting in FY2021) to meet stockpile commitments over 
the subsequent decade. A portion of this mission risk, which does 
represent a change from prior statements and assessments, will be 
mitigated by a recent change consistent with international standards 
that allows significantly more plutonium to be handled and processed at 
the Radiological Laboratory Utility/Office Building (RLUOB) than 
previously had been projected when construction of the RLUOB was 
completed. In addition, with advanced planning and production, that 
level of capability does not preclude consideration of remanufacturing 
pits for upcoming life extension efforts. This production rate is less 
than the 50-80pits/year that CMRR-NF would have enabled, and NNSA 
projects that the higher production level is not required until the 
early 2030s. As such, the lower production rate of 30 pits/year, plus 
the availability of existing off-the-shelf pits, allows NNSA to provide 
the pits we need on the schedule approved by the Nuclear Weapons 
Council for at least the next decade. As part of the ongoing NNSA-DOD 
analysis, we are developing an enduring, long-term plutonium capability 
to provide a higher sustained rate of pit manufacturing ahead of the 
projected need in the 2030s . . . Key DOD officials and one laboratory 
Director endorsed the interim and enduring plutonium plan during the 
August 1 meeting with six Senators.

    Question. You mentioned in your exchange with Senator Corker that 
changes at RLUOB could handle the required production levels to meet 
DOD's mission requirements absent CMRR-NF. However, NNSA's 60 day 
report found that Los Alamos could only meet less than half of the 
minimum DOD mission requirements with extra shift work, and that 
increasing capabilities by just a small margin would take investment in 
other lab facilities to do the analytical chemistry and materials 
characterization, plus a 5-year study of reuse capability that may 
likely find that reuse is not an option. How then did NNSA conclude 
that there is a plan to meet mission requirements since NNSA's best 
plan is incomplete and why, therefore, did NNSA choose to delay CMRR-NF 
knowing that there was not a suitable alternative which met DOD mission 
requirements as outlined in the 2010 Memo of Agreement between DOD and 
the Department of Energy?

    Answer. During at least the next 5-year period of deferral for 
CMRR-NF construction, NNSA plans to meet future DOD stockpile 
requirements through a combination of capabilities found at Los Alamos 
and other sites. For example, the recently constructed Radiological 
Laboratory/Utility/Office Building (RLUOB) has been authorized to work 
with larger quantities of plutonium, consistent with international 
standards, and will provide the opportunity to install additional 
equipment in RLUOB to optimize analytical chemistry capabilities. NNSA 
and Los Alamos are also evaluating the availability and adequacy of 
specific support capabilities at several other sites, so that the 
integrated set of national capabilities will be identified and prepared 
to support pit production. In sum, the interim plutonium strategy will 
assure that we will get the pits we need on the schedule the Nuclear 
Weapons Council--chaired by DOD and NNSA--has determined is necessary.
    With a planned production rate of 30 newly manufactured pits/year 
plus 90 reuse pits/year, the interim plutonium strategy will support 
upcoming LEPs with a combination of remanufactured and reused pits. 
There are technical hurdles to be overcome with regard to pit reuse, 
but the laboratories and NNSA are cautiously optimistic we will be able 
to successfully resolve them. While this approach does increase risk, 
DOD and NNSA agreed that this risk was manageable, and we would still 
be able to meet DOD requirements.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
